<html>
<title> - REFORM IN ARMENIA: ASSESSING PROGRESS AND OPPORTUNITIES FOR U.S. POLICY</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                 REFORM IN ARMENIA: ASSESSING PROGRESS

                   AND OPPORTUNITIES FOR U.S. POLICY

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe
            

                             [CSCE 116-1-8]
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             


                       Available via www.csce.gov
                       
                       
                       
                       
                             ______
                          

               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-166PDF              WASHINGTON : 2020
                       
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

ALCEE L. HASTINGS, Florida          ROGER F. WICKER, Mississippi, 
Chairman                            Co-Chairman
JOE WILSON, North Carolina          BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama         JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri        CORY GARDNER, Colorado
STEVE COHEN, Tennessee              MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania     JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina      THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin               TOM UDALL, New Mexico
MARC VEASEY, Texas                  SHELDON WHITEHOUSE, Rhode Island                              
                                     
                     
                                     
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed

                                  [ii]
                                  
                                  
                                  
                                  
                 REFORM IN ARMENIA: ASSESSING PROGRESS

                   AND OPPORTUNITIES FOR U.S. POLICY

                              ----------                              

                            October 22, 2019

                             COMMISSIONERS

                                                                   Page
Hon. Marc Veasey, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Robert B. Aderholt, Commissioner, Commission on 
  Security and Cooperation in Europe.............................     7

                                MEMBERS

Hon. Jackie Speier, a Representative from California.............     4

Hon. Frank Pallone, a Representative from New Jersey.............     6

Hon. Sheila Jackson Lee, a Representative from Texas

                               WITNESSES

Hamazasp Danielyan, Member of Parliament (My Step 
  Alliance), National Assembly of Armenia........................     8

Arsen Kharatyan, Founder and Editor-in-Chief, AliQ Media.........    11

Daniel Ioannisian, Program Director, Union of Informed 
  Citizens.......................................................    13

Miriam Lanskoy, Senior Director, National Endowment for Democracy    15

Jonathan D. Katz, Senior Fellow, German Marshall Fund............    17

                                APPENDIX

Prepared statement of Hon. Marc Veasey...........................    30

Prepared statement of Hon. Jackie Speier.........................    33

Prepared statement of Hon. Frank Pallone.........................    35

Prepared statement of Hon. Benjamin L. Cardin....................    36

Prepared statement of Hamazasp Danielyan.........................    38

Prepared statement of Arsen Kharatyan............................    41

Prepared statement of Daniel Ioannisian..........................    45

Prepared statement of Miriam Lanskoy.............................    47

Prepared statement of Jonathan D. Katz...........................    50

Statement for the record from the Armenian National Committee of 
  America........................................................    55


                 REFORM IN ARMENIA: ASSESSING PROGRESS
                 
                   AND OPPORTUNITIES FOR U.S. POLICY

                            October 22, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2:05 p.m. in Room 210, Cannon House 
Office Building, Washington, DC, Hon. Marc Veasey, 
Commissioner, Commission on Security and Cooperation in Europe, 

presiding.

    Commissioners present:  Hon. Marc Veasey, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Robert B. Aderholt, Commissioner, Commission on Security and 
Cooperation in Europe.

    Members present: Hon. Jackie Speier, a Representative from 
California; Hon. Frank Pallone, a Representative from New 
Jersey; and Hon. Sheila Jackson Lee, a Representative from 
Texas.

    Witnesses present: Daniel Ioannisian, Program Director, 
Union of Informed Citizens; Arsen Kharatyan, Founder and 
Editor-in-Chief, AliQ Media; Miriam Lanskoy, Senior Director, 
National Endowment for Democracy; Hamazasp Danielyan, Member of 
Parliament (My Step Alliance), National Assembly of Armenia; 
and Jonathan D. Katz, Senior Fellow, German Marshall Fund.

  HON. MARC VEASEY, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Veasey. [Sounds gavel.] Good afternoon and welcome. 
This U.S. Helsinki Commission hearing on ``Reform in Armenia: 
Assessing Progress and Opportunities for U.S. Policy'' will 
come to order.
    If there are any members that aren't commissioners, please 
come up and ask questions and come onto the dais.
    Eighteen months ago, the people of Armenia began marching 
in the streets in a massive protest and civil disobedience 
movement that would become known as Armenia's Velvet 
Revolution. Yerevan, Armenia's capital, had seen waves of mass 
protest in recent years, but no one could have predicted that 
this manifestation of popular will would achieve the 
transformative change it has so far.
    At the beginning of last year, it was difficult to imagine 
that the ruling Republican Party of Armenia's grip on power was 
so tenuous, that it would recede and effectively vanish from 
politics in a matter of months after being in power for more 
than two decades. What's more, the government's history of 
violently suppressing protests meant that demonstrators knew 
theirs was a dangerous and inauspicious undertaking.
    Few knew these lessons better than Nikol Pashinyan, the 
opposition leader at the center of the Velvet Revolution who 
was forced into hiding and jailed after helping organize 
protests against the initial election in 2008 of then-President 
Serzh Sargsyan, the very leader he helped depose last year to 
become Armenia's current prime minister. The fact that this 
revolutionary political change took place without a shot fired 
is a testament to the strength, unity, and discipline of the 
protest movement, as well as to the responsible decisionmaking 
of government officials who declined to resort to violence to 
cling to power.
    The 2018 protest movement coalesced around the demand to 
stop the term-limited president from becoming prime minister, 
but quickly grew to encompass broader goals, and those were 
demanding an end to systematic corruption, respect for the rule 
of law, and economic justice. These are demands that vaulted 
opposition legislator and protest leader Nikol Pashinyan to a 
landslide victory in parliamentary elections in 2018.
    As we near the 1-year anniversary of this historic 
election, the Helsinki Commission is convening this hearing to 
gauge how the Armenian Government is delivering on its 
revolutionary promise. What has it achieved so far, and where 
should it channel its focus in its second year and beyond?
    We're also interested in how U.S. policy is adjusting to 
this unique political opening. Are our assistance levels 
adequate? Are they properly tailored to promote freedom, 
security, and sovereignty of the Armenian people? Given our 
mandate as the Helsinki Commission to focus on the Organization 
for Security and Cooperation in Europe, how are multilateral 
institutions like the OSCE responding?
    I'm pleased that we have here with us today some of the 
Congressional Armenian Caucus leaders who have trained their 
focus on these questions and introduced appropriations language 
that would double the U.S. assistance to Armenia for the sake 
of bolstering democratic reforms. I also understand that USAID 
has responded to the political transformation in Yerevan by 
undertaking a strategic reassessment of its programming in this 
country. My hope is that this hearing will generate substantive 
recommendations for how to orient USAID's forthcoming programs 
toward the most critical reform priorities.
    In the realm of multilateral assistance, the commission is 
particularly interested in Armenia's engagement with the OSCE, 
the regional security organization this commission tracks as 
part of its statutory obligations. Regrettably, however, OSCE's 
assistance to Armenia's reform objectives is hamstrung by the 
closure of the OSCE's Field Office in Yerevan since 2017, when 
the Government of Azerbaijan unilaterally blocked the consensus 
required to extend the office's mandate. Without this office, 
it is more difficult to maintain regular OSCE engagement with 
the Armenian Government to develop and implement important 
training, capacity building, and policy development 
initiatives.
    In response to the OSCE Field Office's closure, the U.S. 
has initiated an Armenian cooperation program that draws 
together voluntary contributions from OSCE participating States 
to support OSCE programs in the country. The Armenian 
cooperation program is contributing to the government's 
security and economic reforms, but this partnership should 
extend to judicial independence, parliamentary oversight, and 
also free and fair elections. I hope this hearing can serve as 
an encouragement to our partners in the OSCE to increase their 
commitment to Armenia's reform program through contributions to 
this U.S.-led initiative. I also hope that Azerbaijani 
authorities will reconsider their decision to block the mission 
and welcome discussions to reopen it.
    Before proceeding further, I'd also like to thank Chairman 
Alcee Hastings for the opportunity to chair today's hearing on 
an issue of profound importance not only for the people of 
Armenia, but for the future of democracy and human rights in 
Eurasia and the OSCE region as a whole.
    At this time, I would like to acknowledge other 
commissioners that are here and, again, Members of the 
Congressional Armenian Caucus--Jackie Speier and Frank 
Pallone--that are here, and anyone else in attendance for 
opening remarks that they wish to make.
    We have assembled an excellent panel to discuss 
developments in Armenia and to provide their recommendations 
for the path forward.
    We're honored to have with us from Yerevan a distinguished 
parliamentarian from Armenia's National Assembly and a member 
of the My Step Alliance, Hamazasp Danielyan. Mr. Danielyan 
spent much of his career working in civil society and managing 
democracy promotion programs in Armenia. In the National 
Assembly, he serves as the coordinator of the Parliamentary 
Working Group on Electoral Reform.
    And then we're going to hear from Arsen Kharatyan. Mr. 
Kharatyan is the founder and editor-in-chief of AliQ Media, an 
independent Armenian news outlet based in Georgia. Mr. 
Kharatyan is a founding member of Prime Minister Pashinyan's 
Civil Contract Party and served as a senior advisor to him 
during the first 100 days of his tenure as prime minister.
    Our third witness is going to be Daniel Ioannisian, who is 
visiting from Yerevan, where he works as a program director for 
the Union of Informed Citizens, which is an NGO focused on 
developing Armenia's independent media sector and tackling 
issues such as disinformation and media literacy. As a 
political activist and civil society leader, he has developed 
expertise in many areas of democratic reform, and currently 
serves as secretary of the parliamentary working group working 
on electoral reform that is led by Mr. Danielyan.
    Also, in addition to Mr. Ioannisian, we will hear testimony 
from Miriam Lanskoy, senior director for Russia and Eurasia at 
the National Endowment for Democracy. Ms. Lanskoy has spent 14 
years experiencing and studying and supporting democracy 
promotion in the former Soviet Union.
    Last, Jonathan Katz, who is a senior fellow at the German 
Marshall Fund, will testify on his considerable experience 
managing U.S. assistance programs in the former Soviet Union. 
From 2014 until 2017, he served as deputy assistant 
administrator at USAID, where he managed U.S. development 
policy, energy security, economic growth, democracy, and 
governance programs in Eastern and Central Europe and the Black 
Sea and the Caucasus regions.
    I will refer you to the materials in your audience handouts 
for the full biographies of all of our witnesses. Again, thank 
you for being here today.
    And before we hear from Mr. Danielyan and his testimony, I 
also want to welcome His Excellency Mr. Varuzhan Nersesyan, the 
Ambassador of the Republic of Armenia to the United States, who 
is also here today. Thank you, sir, for joining us.
    I look forward to hearing all the experts' assessments and 
their expertise on Armenia. And now we invite Mr. Danielyan to 
begin his testimony.
    Mr. Danielyan. Thank you very much, Mr. Chairman.
    Mr. Veasey. If you could please pause very quickly, I 
believe Ms. Speier is going to have remarks and then we'll come 
to you, Mr. Danielyan.

      HON. JACKIE SPEIER, A REPRESENTATIVE FROM CALIFORNIA

    Ms. Speier. Mr. Chairman, thank you for holding this very 
important hearing on the burgeoning democracy in Armenia. I 
have met with almost all of your panelists, I believe I have 
met actually each and every one of you, on one level or 
another. And I regret that I'm not going to be able to stay 
because I am a member of the Intelligence Committee and we are 
knee-deep in interviews right now on the impeachment inquiry. 
So forgive me for not being able to stay.
    But, Mr. Chairman, I wanted to share with you my 
observations, having just returned from Armenia. And I know my 
colleague and co-chair of the caucus on issues regarding 
Armenia, Mr. Pallone, will also speak. Although we passed in 
the night, so to speak, we were not there simultaneously, but 
we did bookend each other in our travels.
    Over the last year and a half, I have watched, as many of 
us have, with excitement and admiration as Armenia's people 
have transformed the government from a staid autocracy to a 
burgeoning democracy--all without a shot being fired. Seared in 
my mind are the signature images of Armenia's Velvet 
Revolution: hundreds of thousands of women and men in the 
streets protesting, children blocking the roads with their toy 
cars and trucks, and that defiance turning into joyful dancing 
and singing as Armenia's people and future carried the day.
    As I said, 2 weeks ago I had the privilege to visit Armenia 
as a member of the first dedicated congressional trip to the 
country since the revolution. And I could not be more excited 
or encouraged about the progress that's being made after being 
there. Armenia's democracy is brand new: 102 of the 132 
parliamentarians have never held public office before and its 
bureaucrats are inexperienced. But I have good news: they are 
up to the challenge.
    I truly was blown away by the bright young people who will 
define Armenia's next chapter. They have much work to do: 
building political parties, reforming institutions, and writing 
and implementing laws. But they are truly up to the challenge.
    Armenia's young people are brilliant, engaged, and capable, 
and they understand that they must act quickly to take 
advantage of their unique opportunity to define their country's 
future. I repeated that sentiment with the prime minister, the 
president, and with many of the members of the parliament. 
There is a small window of time in which to act, and act they 
must.
    The efforts that are underway are daunting. There's no 
question about it. To reshape a country that has been under a 
mostly corrupt organization beforehand is very important. Some 
of the basic things that need to take place include building a 
modern, efficient bureaucracy; reforming the constitution and 
the electoral code; and improving the country's infrastructure 
and delivery of basic services, like trash pickup and street 
cleaning. All we need to do is follow the lead.
    I'm very grateful that my amendment to allocate an 
additional $40 million in democracy aid to Armenia received a 
resounding 268 bipartisan votes on the House floor, and it 
continues with this hearing today. Going forward, we must 
continue to highlight Armenia's progress, assist its 
government, and partner with its parliamentarians.
    I will say--and I'm sure my colleague, Mr. Pallone, will 
speak to this as well--we traveled to Artsakh and met with the 
HALO [Hazardous Area Life-support Organization] Trust there 
that has been doing an incredible job in demining. And yet, we 
have reduced the funding to $500,000 in the next year to have 
them draw down when, in fact, they still need $6 million over 3 
years to complete their work. So I'm hopeful that we will 
rethink that allocation and recognize that we must assist in 
competing the task that HALO has started.
    In meeting with the prime minister, he also made the plea 
to us that they want assistance in terms of training their law 
enforcement, and particularly to acquire police vehicles, much 
like the vehicles we have here in the United States. So we must 
also ensure that Armenia's leaders understand that taking 
advantage of their special limited opportunity to drive their 
country's future will require laying out specific plans. So 
it's not good enough to just say we are moving forward. I think 
the Armenian people need to know specific plans that will be 
undertaken.
    Armenia has come so far in such a short period. It is truly 
remarkable, and inspiring, and a reminder that even in the 
shadow of growing global autocracy, even in a neighborhood 
filled with bad actors, and even when it seems more distant, 
the flame of democracy burns bright and we can help it grow.
    I want to thank you again for holding this hearing, Mr. 
Chairman, and I look forward to the testimony. I regretfully am 
going to have to leave, but I will certainly read the testimony 
once it's transcribed.
    And let me just say, as I leave, what's happening in 
Ukraine should be a warning to all of us that if we are not 
vigilant, if we do not support democracies that exist in that 
part of the world, we will be damned in the future. And I yield 
back.
    Mr. Veasey. Representative Speier, thank you for your 
comments and thank you for joining us.
    The chair now recognizes from New Jersey, Mr. Pallone.

      HON. FRANK PALLONE, A REPRESENTATIVE FROM NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I want to thank you 
and the U.S. Helsinki Commission for having this really 
important hearing today. And, as my colleague Jackie Speier 
from California mentioned, we were very fortunate just in the 
last few weeks, the two of us as well as Judy Chu, to travel to 
Armenia and see the results of the Velvet Revolution and meet 
some of the parliamentarians, including Mr. Daniel Ioannisian, 
who's going to be the first person to testify today.
    I'll be brief, but I just wanted to say that it is 
incredible to me the amount of progress that has been made by 
Armenia since the first time I visited. I visited a few years 
after the breakup of the Soviet Union. And I can't stress 
enough, this was a new republic, a new country coming out of 
the Soviet Union that had a war over Artsakh, that had an 
earthquake which devastated major parts of the country, that 
continued to be blockaded then and today by its neighbors, 
Turkey and Azerbaijan, and was cut off, in the aftermath of the 
Soviet Union, from its market. Remember that Armenia was part 
of this market with the Soviet Union. It was a manufacturing 
center that produced a lot of products that were sold in the 
other parts of the Soviet Union.
    So it was really on its knees. It was in bad shape. But 
even then, I think there was a feeling on the part of the new 
government that they had to be democratic; that they had to be 
market-oriented; that they had to enforce the rule of law. And 
I would be the first to admit that it was a long time before 
all those things came to fruition. And they're still not 
completely at fruition. But the bottom line is, when we had the 
Velvet Revolution in April 2018, it was really a culmination of 
what I felt was the way that Armenia wanted to go. Armenia very 
much looks to the West and looks to our institutions.
    And I'm not going to suggest that there still isn't a lot 
more that needs to be done with regard to judicial reform, 
constitutional reform, corruption, and police reform. Jackie 
mentioned that the prime minister stressed that to us more than 
anything else, because he thought that was something that we 
could work on together. There's a lot more that needs to be 
done, but they have just made so much progress, and there's so 
much optimism in the air.
    And every one of these things that I just mentioned, the 
parliament is now working on. When we were there, we actually 
had an opportunity to go and listen to some of the debates by 
some of the members of the U.S. Friendship--they have a U.S. 
Friendship Council that's the equivalent of our Armenia Caucus. 
And we were there on a MECEA trip and they're coming here in 
November, some of the leaders of their equivalent of the 
Armenia Caucus.
    And they were working on the judicial reform as we spoke. 
That was part of the debate in the parliament that ultimately 
passed. So I can't stress that enough. And, as Jackie said, 
this was a Velvet Revolution. Think about it. We know what 
happened in Russia. We know that Ukraine continues to be a 
dictatorship--or, not Ukraine--Belarus continues to be a 
dictatorship. We know how difficult it is for Ukraine. But 
here, without firing a single shot, the president resigned, 
there were new elections that were totally transparent last 
December. And I can't stress enough how much they're doing to 
bolster civil society, strengthen the democratic and judicial 
institutions, and root out corruption.
    But the main thing I wanted to say--and I know Jackie 
alluded to that as well--is that's why we in the Armenian 
Caucus are really working hard to try to get the State 
Department and USAID to fund projects in Armenia. For example, 
we met with the high tech minister. And there are so many 
things that could be done there if we could do some more USAID 
projects, or other projects with U.S. help. We met with the 
health minister. The prime minister talked about police reform. 
Every one of these things could be done either through USAID or 
some of the other democratic institutions that we have here. So 
we're really trying to encourage that. We want the U.S. to get 
involved.
    I introduced a resolution that aims to officially recognize 
the democratic reforms that the country's taking. And that's 
now in our International Relations Committee. I know that 
they're going to move that fairly quickly. I should also 
mention, if I can, that it's very likely that the Armenian 
genocide resolution is going to come to the floor next week. I 
know that might not seem to be the topic today, but I think 
it's also something that needs to be done in order to talk 
about the terrible history that Armenians faced over 100 years 
ago.
    And so I'm hoping that under the auspices of both the 
Helsinki Commission as well as our efforts with the Armenia 
Caucus, that we can provide the investments that will build on 
the current U.S.-Armenia strategic relationships and help to 
grow what I consider an already thriving pro-democracy movement 
to reach its fruition with our aid.
    Thank you, again. My colleague for Energy and Commerce--I'm 
going to say one more thing. I chair the Energy and Commerce 
Committee. Marc is also on it. And a lot of the things that we 
mentioned in Armenia come right under our jurisdiction--tech, 
health care, energy. There are so many things that we have to 
look at in our committee--not that I'm going to tell you what 
to do. But we can work together on some of these things in our 
committee.
    Thank you. Thank you, Mr. Veasey.
    Mr. Veasey. No, that's very true, Mr. Pallone. Thank you 
very much for being here today. Thank you for joining us. And 
thank you for your testimony.
    And now the chair recognizes from Alabama, Mr. Robert 
Aderholt.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you Mr. Chair. Just want to say, good 
to be here. I've been a member of the Helsinki Commission for 
many years now. And it's an important committee, it looks at 
issues around the world, and hot spots, and places that we can 
work together to make the different regions of the world our 
partners in many different ways. I don't have any really 
official opening comments. I want to say I'm glad to be here 
and look forward to the testimony that we're about to hear.
    Thank you.
    Mr. Veasey. Mr. Aderholt, thank you very much.
    And now I'm going to recognize Mr. Danielyan to begin his 
testimony. And want to remind all the witnesses that we're here 
for an abbreviated time period. So, if you want to, make your 
remarks brief so everyone can have a chance to go, and we can 
have questions and answers, that would be great.
    Thank you very much.
    Mr. Danielyan.

     MR. HAMAZASP DANIELYAN, MEMBER OF PARLIAMENT (MY STEP 
            ALLIANCE), NATIONAL ASSEMBLY OF ARMENIA

    Mr. Danielyan. Thank you, Mr. Veasey. And thank you, 
Helsinki Commission members.
    Let me start with thanking the honorable members of this 
distinguished commission for organizing these hearings and 
bringing Armenia's democratic transformation under the 
spotlight. Your interest toward democratic developments in 
Armenia is very encouraging. The support is very much 
appreciated. I should say that as a member of the Parliamentary 
Assembly of the Organization for Security and Cooperation of 
Europe, we established good level working relations with the 
U.S. delegation and distinguished members. At the same time, I 
should bring your attention to the fact that there is much yet 
to be done in deepening our cooperation across all three 
dimensions of the OSCE.
    I believe this hearing will contribute to that aim, 
especially in the direction of human rights and democracy. I 
also believe that Armenia's recent experience of peaceful 
democratic transformation has much to offer for many countries 
in the region and across the globe. And this experience and 
commitment to democratic failures and human rights was also 
recognized only a few days ago when Armenia was elected by the 
vote of more than 140 U.N. member states to be a member of the 
Human Rights Council of the United Nations.
    Now, coming to the process of democratic transformation, 
for me there are many aspects I would like to present. While I 
was making my close to 30-hour-long trip to stand in front of 
you, to make this 5-minute testimony, I was thinking, what are 
the best ways to present the process that is happening in 
Armenia? And I came to the conclusion that maybe instead of 
presenting the details of democratic reforms and strategies, 
and all the documents that I suspect are being and can be 
communicated in a better forum, I will talk a little bit about 
my personal experience and journey, which is directly 
intertwined with the trends that are happening in Armenia, and 
present a few episodes from the past 10 or so years.
    So, first, let me begin with the February 2008 contested 
presidential elections that were happening in Armenia. I was in 
my career working for a nongovernmental organization in the 
United States, IFES, the International Foundation for Electoral 
Systems. And through this organization, we were supporting 
democratic elections in Armenia, as well as witnessing the 
systemic level of rigged elections. I cannot forget the efforts 
of a brave American woman, whose name is Linda Edgeworth, who 
was trying to save one of the local observers that was being 
harassed in the local precinct.
    The number of precincts in Armenia are close to 2,000. And, 
unfortunately, there were not enough Lindas to assist stopping 
the systemic level of vote rigging. After these elections, for 
10 days citizens of Armenia protested peacefully on the streets 
of Armenia. And this resulted in one of the darkest days of 
modern Armenian history, March 1st, 2008, when, because of the 
use of lethal force, 10 people were killed on the streets. Only 
a few months later, I remember a conversation with my friend 
and colleague Arsen Kharatyan, in DC, in the summer of 2008, 
about the democratic prospects of Armenia. And those were not 
very hopeful conversations. And prospects were not very bright.
    Despite that, I returned to Armenia with the hope of 
contributing to the democratic development of Armenia. And one 
of the best and secure ways to do it was joining USAID efforts. 
And I should say that most of my career I spent working with 
different USAID projects aimed at working in the democracy and 
governance sector in Armenia and aimed at strengthening 
democratic institutions in Armenia. I remember 2012 when I was 
hired as a country expert for reviewing USAID's country 5-year 
strategy. And after a number of failed attempts to improve 
elections and strengthen parliament, there wasn't much optimism 
about the direction of Armenia's political development.
    An important milestone in the negative development toward 
the autocratization of Armenia, in my opinion, was the adoption 
of constitutional changes in December 2015, which paved the way 
for a president, who was elected in 2008, to extend his rule 
beyond the two terms by changing the governing system in 
Armenia. I remember clearly that while drafting the annual 
report--I was drafting the annual report for Freedom House in 
2016, I believe--I noticed that there was another year of 
stagnation of Armenia, and that my country slowly, but 
steadily, was coming closer to downgrading to the category of 
totalitarian regimes, despite all the efforts of civil society, 
international partners, and very few and already marginalized 
changemakers in the government.
    I should admit, there were moments when I started to doubt 
that I would ever witness genuine democratic changes, or even a 
single free and fair election in Armenia within my lifetime. I 
had the same doubts when I joined the protesters in April 14, 
2018 in Freedom Square, the place that was the epicenter of all 
important political developments in modern Armenian history, 
starting with the struggle for independence from the Soviet 
Union. There were a couple of thousand protesters. And I 
remember, along with Daniel Ioannisian who was there with his 
drone documenting the event, a small child with Arsen talking 
about the importance of raising our disagreement with the plan 
of Serzh Sargsyan to remain as the leader of country.
    Indeed, many of us were there just to protest this final 
act of the well-planned process of making Armenia into another 
post-Soviet country that is indefinitely ruled by a single 
person and a single party. Few could predict that only after a 
couple of weeks, this strongman would be forced to resign by 
hundreds of thousands of peaceful protestors, who joined those 
few of us, led by current Prime Minister Nikol Pashinyan. 
Already, by the beginning of July 2018, a commission of experts 
was formed that was led by--Armenia's a small country, so I 
will keep repeating the same names--Daniel Ioannisian, that was 
tasked to table a package of changes for the electoral code in 
preparation of snap parliamentary elections.
    I was member of that commission, but I joined it slightly 
later because I was in this beautiful city early July 
supporting the work of the Smithsonian Institution, because 
Armenia was featured in its Folk Life Festival. After a couple 
of months of work, this commission was able to prepare a 
package of bills exactly 1 year ago, October 22d, 2018. The 
parliament rejected this bill, and the parliament still had a 
majority of the outgoing party of previous regime. And 
interestingly, if they didn't reject the bill, they would now 
be represented in the parliament because this bill was 
suggesting for more inclusive rules--electoral rules.
    December 2018 was the first ever genuine democratic 
election in Armenia. And, as a result of these elections, a new 
parliament was formed. And I am honored to be a member of this 
parliament. And this assessment is not the assessment of only 
the Armenian public, but also the assessment that is reflected 
in the OCSE Parliamentary Assembly OSCE ODIHR joint opinion. 
And starting from March 2018 in the parliament, we formed a 
working group, bipartisan I should emphasize, where members of 
all parties represented were tasked with drafting and designing 
the changes--electoral changes.
    I should--without taking much of the time--I should point 
out two things. This working group has prioritized a number of 
areas for the reform, including change of political party rule 
of law. And on Friday, we had a big public hearing with 
participation of all major stakeholders, discussing the ways we 
can liberalize the rules for party organization in Armenia and 
increase transparency because we consider this as an important 
measure for anticorruption.
    I should conclude with stating that we have no illusions 
that the task of creating strong and democratic institutions, 
it is not easy. And there will be a lot of challenges ahead. 
But there are also no illusions that this may be the last 
chance for our generation to achieve this very important task 
of building strong, democratic statehood in Armenia, which is 
the only way that Armenia can enable Armenia to meet its 
challenges within and outside.
    I want to say that this is a big struggle of a small 
nation. And this struggle is not about geopolitics. This story 
is about people who wish to restore the sovereignty and are 
doing their best to make their homeland a place where they can 
pursue their happiness, with the respect of human rights and 
freedoms. And this is the struggle that we all hoped to have 
had during the past decade.
    I hope later we will have a chance to discuss many more 
specific directions of the reforms that are happening in 
Armenia, but I will give the floor now.
    Thank you.
    Mr. Veasey. Mr. Danielyan, thank you very much for your 
testimony.
    And now I'm going to invite Arsen Kharatyan. He is the 
founder and editor-in-chief of AliQ Media. And just a reminder, 
you don't have to read all of your remarks, but to try to keep 
them brief enough so that we can have a chance to hear from 
everybody, and perhaps even have questions from the 
commissioners and other of the dais.
    Thank you.

  MR. ARSEN KHARATYAN, FOUNDER AND EDITOR-IN-CHIEF, ALIQ MEDIA

    Mr. Kharatyan. Thank you, Congressman.
    I want to thank Chairman Veasey and Helsinki Commission for 
organizing this important hearing. And I want to thank, of 
course, the members of the Armenian Caucus, who I've known for 
over a decade myself. Thank you very much, once again, for 
putting Armenia and our democratic process in Washington and on 
the agenda.
    Briefly about myself--I grew up in Armenia and got engaged 
in civic activism as a young student at a young age. In 2008, 
after the disputed presidential elections that saw then-
President Serzh Sargsyan come to power, many of us were 
arrested, including the current prime minister and many of the 
political elite currently in power, harassed to an extent that 
we were, and I was forced to leave the country. But it wasn't 
all that bad. I found my wife, Ms. Sonia Shahrigian, here, who 
was born across the river in Virginia and who currently works 
for the U.S. Government, and has been working for the last 
decade.
    Her job took us to Georgia, the country of Georgia, which 
is also getting quite a lot of support from the U.S., which I 
believe is a very important thing to do. I, myself, worked at 
Voice of America and had the opportunity to interview many of 
you, including Congressman Pallone here and Congresswoman 
Jackie Speier, many times, especially when it came to 
discussions on the Armenian genocide resolution.
    And I remember one of these times, where my journalist 
colleagues were here and we were discussing the resolution in 
2009 at the Foreign Relations Committee, which was quite tough 
work. It took 8 hours and there were parliamentarians back then 
from Turkey, from Armenia, including the current Ambassador to 
the United States, who was a DCM [deputy chief of mission] back 
then, Mr. Varuzhan Nersesyan, who I want to thank for being 
here with us.
    Anyways, I will shortly talk about the revolution that we 
went through. This was by large a revolution of values. This 
was by large a revolution in aspiration for a democratic state 
that our country and our nation has been struggling with for a 
long time. This was a homegrown revolution, obviously. This is 
an internal process, by large.
    But this would not have been possible without the great 
support that the Armenian civil society and media have been 
receiving from the United States as well. For a number of 
years, this country has been supporting democratic institutions 
in our country, including my great colleague Miriam Lanskoy, 
who will be speaking here through the National Endowment for 
Democracy, which has been supporting many of the young civil 
society groups, including the media organizations, for many 
years, for which I want to thank. And I want to see the 
continuation of that.
    So for the last three decades, our nation experienced great 
challenges. From military conflict in Nagorno Karabakh, which 
of course the Congressmen and Congresswomen here know very 
well, to massive economic decline, a transition from the Soviet 
centralized to a market economy with a continued blockade of 
our two borders by our two neighbors in the east and in the 
west. Since our independence in 1991, our people never stopped 
their struggle for their fundamental freedoms, civil and 
electoral rights. We do realize that the path to freedom is not 
an easy one. It is a bumpy road. But in our view, Armenia and 
the Armenian people have no other choice but to have a country 
with fully functioning democratic state institutions and a 
strong civil society.
    While Armenia's nonviolent Velvet Revolution is yet another 
example of great positive transformation and a hope for 
democracy for the world at this time of crisis, I have to admit 
that there are a great deal of challenges we have to deal with. 
The new democratically elected administration of our country, 
headed by the leader of our revolution and currently the Prime 
Minister of Armenia, Nikol Pashinyan, has introduced its reform 
agenda with a big emphasis on fighting against corruption, 
building state institutions, ensuring fundamental freedoms and 
liberties of our citizens.
    While, the current Civil Contract ruling party, or the 
faction called My Step, which is represented by my great friend 
Hamazasp Danielyan here, received a very high vote of 
confidence, over 70 percent, in December 2018, the new 
administration in Yerevan is now dealing with fundamental 
changes in the state governance in order to ensure the 
prosperity of its citizens and security for the state. Years of 
corrupt governance eroded the state apparatus, creating an 
oligarchic and a kleptocratic system where all of the resources 
of the country were utilized to benefit a tiny minority of 
strongman and criminals.
    To change an almost failed state to a functioning system of 
governance is not an easy task. And we expect the United States 
to stand by the Armenian people, as it has done since our 
independence. Since the early 1990s, the American people 
supported Armenia in its path to democracy, market economy, and 
helped build a strong civil society, as I mentioned before. I 
would like to note that this continued support has been 
instrumental in our success before, during, and hopefully after 
this Velvet Revolution.
    Since its inception, the democratically elected parliament 
and the government of Armenia have announced a wide range of 
reforms and a fight against corruption. I can state that at 
this point, systemic corruption in the country is practically 
eliminated. And that said, the prime minister and the 
government, no one in the ruling party has been or can be 
spotted for being involved in anything related to corruption. 
The political elite, which came to power as a result of the 
revolution through free and fair elections, is a group of young 
and educated idealists, who are true believers of fundamental 
human rights and have the best intentions to make their country 
a fully functioning democracy.
    However, it is evident, that good intentions are not enough 
for changes of this scale, so we do need your assistance at 
this critical time. The Government of Armenia has announced its 
policy of fighting against corruption, which will soon be 
adopted by the country's parliament. The policy includes a wide 
range of changes in the areas of judiciary, tax and customs, 
reforming police and public security system, as well as 
education, health care, and social security. The United States 
can and has already showed interest in supporting the Armenian 
Government in all of these areas. However, it would be a great 
sign of support from Washington if this interest translated 
into concrete actions.
    While with the great help of the friends of the Armenian 
Caucus at the U.S. Congress, the financial aid to Armenia has 
doubled for the next year. Earmarking the funds allocated to 
our country, like it is done with our neighbors Georgia and 
Ukraine, would be a great sign of wider political support. 
Meanwhile, in my view, from aid to trade should be the 
philosophy of Washington, DC with regards to Armenia. Hence, 
making Overseas Private Investment Corporation, the OPIC funds, 
larger, like it is, again, in the case of Georgia and Ukraine, 
would encourage American businesses to enter the Armenian 
market with more interest and confidence.
    Last but not least, supporting Armenia in the area of 
security can and should be discussed further. Our military's 
present in Afghanistan and Iraq within the framework of NATOs 
Partnership for Peace program. Considering the unresolved 
conflict in Nagorno Karabakh and the changing security 
architecture of our region, continued and deeper training of 
our security forces is of crucial importance. So this is an 
area where U.S. support would be greatly appreciated--really 
appreciated.
    That said, you should also raise your expectations of what 
Armenia and the Armenian people can and should do in the months 
and years ahead. You should not explain or excuse away our 
failures because of geopolitics or the legacies of the past. 
Yes, Armenia's challenges are decades in the making, but just 
like the people's apathy and seemingly all-powerful political 
monolith, the challenges can be overcome and resolved. Much is 
at stake, and we have got to get this right. The people who 
believed in themselves and the strength of the universal ideals 
of freedom, fairness, and pursuit of happiness deserve it all.
    I once again thank this commission for organizing this 
important hearing and will be happy to address your questions.
    Mr. Veasey. Thank you very much for your testimony, Mr. 
Kharatyan. I really appreciate that.
    And now the program director at Union of Informed Citizens, 
Mr. Daniel Ioannisian, who will begin his testimony now. Mr. 
Ioannisian.

  MR. DANIEL IOANNISIAN, PROGRAM DIRECTOR, UNION OF INFORMED 
                            CITIZENS

    Mr. Ioannisian. Thank you very much, Chairman Veasey. This 
is a great honor for me to appear here in front of you and to 
give testimony regarding democratic transition in Armenia.
    For decades, democratic institutions were being 
systematically destroyed in Armenia. All the state bodies 
forcefully served a group of people who kept power through 
rigged elections. Extensive propaganda and total apathy were 
also helping that group keep the power. This situation was an 
example of state capture. Expressing their discontent toward 
yet another attempt to violate democracy, and desiring to 
counteract corruption, the people of Armenia made a democratic 
and peaceful revolution last year. As a result of the 
revolution, people who lost power did not lose the very big 
amount of financial and media resources they had. With the 
obvious support from Russia, they started active propaganda 
against liberal democracy, setting it against security.
    That propaganda is so active that it makes the authorities 
step back from the ideology of liberal democracy, which they 
share, I'm pretty sure. And the authorities are doing so to 
prove that they do respect the importance of security as well. 
And here, I don't mean the real security. I mean nationalistic 
and hoorah-patriotic rhetoric.
    Currently, Armenia needs to consolidate its democracy so 
that the values of liberal democracy are not compromised. For 
that reason, support to the developments of democratic 
institutions is important, but it's not enough. As I already 
noted, the representatives of the former government--the former 
corrupt government--are trying to stop the democratic 
transformation by all means they can. These groups continue to 
own huge financial resources and they act very efficiently in 
the cyber and information space. And they are backed up by 
Russia.
    I should note that in this respect, it will be very 
efficient to freeze the illegally obtained assets of those who 
have committed crime-related offenses in Armenia, to freeze it 
everywhere in the world, and including in the United States. Of 
course, this all should be done with full respect of human 
rights and fundamental freedoms.
    But neutralization of corrupt representatives of the former 
government is not enough. It is also important to support 
making the democratic transition in Armenia more complete and 
comprehensive. It is crucial that the independent justice 
system and efficient law enforcement develop in Armenia. One of 
the weaknesses of the law enforcement system in this respect is 
the lack of capacity to fight against corruption, organized 
crime, and cybercrime. The capacities of the law enforcement 
and judicial system in this sector are so weak, that very often 
they are not able to institute criminal prosecution based on 
the investigations already conducted by investigative 
journalists or other watchdogs. As a result, the 
representatives of the former corrupt government violate laws, 
commit financial and cybercrimes, and conduct large-scale 
campaigns against democratic reforms, but remain largely 
unpunished only because the capacities of law enforcement, the 
prosecutor's office, and the independence of courts are not 
enough to respond to these criminal activities.
    Although Armenian authorities share democratic values and 
human rights, they are quite inexperienced. And due to this 
factor, the former corrupt regime manages to force the 
authorities to slow down the institutional reforms by setting, 
as I mentioned, security against liberal democracy and 
affecting public opinion. It is also important to note that 
with respect to higher efficiency of reforms and not 
compromising the ideas of liberal democracy, it is crucial that 
the process of reforms should be inclusive, and nonprofit 
organizations which have promoted democratic values for years 
or decades are actively involved in it.
    Today, Armenia has an exclusive and unique opportunity to 
put the principles of liberal democracy on institutional basis. 
To reach that goal, support should be provided to Armenia in 
terms of becoming more independent from Russia. It is no secret 
to anyone in this room that Russia does not like any 
democratization process in its neighborhood, or anywhere in the 
world. And the independence from Russia can grow if nonnatural 
gas-based generation of electricity and other infrastructures 
will develop in Armenia. The first will assist to reducing the 
influence of Russian natural gas, and the second will help in 
bringing back Armenian working migrants from Russia, since they 
also serve as a pressure tool for Kremlin when needed.
    Support to institutional reforms should be not only 
financial, but also it should be as sharing of experience. 
There are very good examples. Maybe mentioning the Ukrainian 
example is not the best idea in these days here, but still, the 
experience that was shared in Ukrainian anticorruption bodies 
was quite useful.
    Thank you very much, and I'll be happy to answer any 
questions.
    Mr. Veasey. Thank you very much, Mr. Ioannisian. I really 
appreciate that.
    And now we're going to have Miriam Lanskoy, who is the 
senior director of the National Endowment for Democracy. I want 
to remind the witnesses that their full testimonies will be 
entered into the record. And please feel free to summarize your 
testimony in the interest of time.
    Ms. Lanskoy.

  MS. MIRIAM LANSKOY, SENIOR DIRECTOR, NATIONAL ENDOWMENT FOR 
                           DEMOCRACY

    Ms. Lanskoy. Thank you very much, Chairman Veasey, and 
other members of the commission. Thank you for having this 
hearing. And it's a great honor to be here to speak about the 
reform in Armenia.
    The National Endowment for Democracy is a congressionally 
funded private foundation which is dedicated to the growth and 
strengthening of democratic institutions around the world. NED 
has been working continuously in Armenia since the mid-1990s. 
We've supported a wide range of programs for this entire 
period. And since the revolution, we have seen the transition 
in Armenia as a major regional priority. We do view Armenia 
similarly to Ukraine and Georgia as a major priority. And I 
want to join others who have said that it should be approached 
in a similar manner, through USG funding to be accelerated in a 
similar way.
    Armenia's Velvet Revolution is an authentic democratic 
breakthrough. It's a historic opportunity to build a more just 
system. And it presents many opportunities for deepening 
relations with the United States.
    Having said that, and with sort of all due respect to my 
colleagues, the change has been slow to materialize. Prime 
Minister Nikol Pashinyan has been prime minister since May 2018 
and the newly democratic Parliament has been there since 
January 2019. Over the last few months, we are starting to see 
some of the reforms take shape. And as already has been 
mentioned, particularly in the areas of anticorruption, 
judicial reform, and electoral law.
    They're only a year into a 5-year term. So, there's still a 
lot of time and their popularity is very high with the Armenian 
people. So this new government does represent a very popular 
aspiration for democracy. They have 70-80 percent support 
throughout the last couple of years. No one doubts their values 
or their intentions.
    I think there are two issues. One issue is of a 
philosophical nature. These people are idealists, committed to 
democratic principles and want to be cautious, and don't want 
to see drastic, rapid transformation. Another type of issue is 
a kind of overreliance on the executive, which is typical of 
the post-Soviet space, where the office of the prime minister 
is the seat of all power. And that is consistent across time 
and space everywhere in the post-Soviet area.
    However, for democracy to flourish, the other branches, 
particularly the Parliament and the courts, also have to come 
into their own. And in Armenia, I would say the major 
opportunity is the Parliament. As has already been mentioned by 
Congresswoman Speier, it's a freshman Parliament. One hundred 
and one parliamentarians are in their first term. These are 
young people. They are well-educated, they're worldly. They are 
really the future of this country. And the more that we can do 
to build up the capacity of the Parliament and enable it to 
play a stronger role in reform in the future, the better. NDI 
and IRI are already there, with some support from AID and some 
from NED. But more can be done, especially building up 
commission staff and various professional staff, like a 
research service for the Parliament.
    NED has prioritized media assistance and countering 
disinformation. As has already been noted, the media space is 
still largely controlled by oligarchs, particularly television. 
They are close to Russia. This is a major destabilizing force 
in Armenia. New TV licenses are not yet available. They might 
be in a year or so. At the moment, what we're doing is focusing 
on building capacity of independent online media that have a 
strong audience and have a strong editorial line and can, in 
time, transition to television when that opportunity is 
available.
    More could be done to provide training and to provide 
different opportunities for independent media to emerge, as 
well as to help the public broadcaster and also to help the 
government develop communications strategies. There's an 
overreliance on social media. This was a social media 
revolution. And the people in government too often are sucked 
into kind of social media storms. And there could be more to 
help professionalize the way that government officials, 
parliamentarians, work with the public and with the media. So, 
there are many areas where the U.S. can offer support through 
programs, and to really help develop a more robust democracy.
    Finally, the last thing I want to mention is that Armenia 
has put its former president, Robert Kocharian, on trial. This 
is a huge, huge achievement. It's a big deal. No former 
president in the former Soviet space--some have been removed, 
but none have gone to trial. Kocharian is a friend of Putin's. 
No one would have thought that Armenia would be able to do 
this. And this goes back to what Mr. Danielyan mentioned, the 
killings in 2008. Kocharian is being held responsible for those 
killings.
    But there are enormous problems because the constitutional 
court is made up almost entirely of Kocharian's appointees. So 
they have voted, the constitutional court has held that he 
enjoys immunity. This is an extremely important and difficult 
process that Armenia is going through. And there's a lot of 
questions about whether an authoritarian constitution, an 
authoritarian juridical system, an authoritarian constitutional 
court could actually deliver justice in a pivotal case like 
this. And we're seeing now a complex process of trying to bring 
about that justice.
    And just in closing, again, Pashinyan and My Step remain 
very, very popular. They have four more years in their mandate. 
And all of society is really hoping that they do build 
systematic and real institutional reform.
    Thank you.
    Mr. Veasey. Ms. Lanskoy, thank you very much for your 
testimony.
    And now I would like to recognize Mr. Jonathan D. Katz. He 
is the senior fellow the German Marshall Fund.
    Mr. Katz, thank you very much.

   MR. JONATHAN D. KATZ, SENIOR FELLOW, GERMAN MARSHALL FUND

    Mr. Katz. Thank you, Mr. Chairman, and members of the 
commission, Congressman Pallone, others, particularly the 
chairs of the Armenia Caucus. And I want to just applaud them 
for the recent visit to Armenia. I get a sense from Armenian 
leaders that they'd love to have more visibility with U.S. 
officials at a much higher level. And so your visit there is 
really incredibly important to that effort.
    I want to just thank you [for being] on this panel today 
with really some very distinguished colleagues. But I want to 
praise the colleagues who've come here from Armenia, because 
they were on the frontline of democracy, making the change 
happen. And so I just want to applaud you for your efforts, and 
your leadership to be part of really a transformative moment in 
Armenia.
    I think, as was pointed out, in an era where we've seen 
democratic backsliding occurring in too many countries across 
Europe, Armenia stands out as a nation bucking this disturbing 
trend. Despite economic, political, security and geostrategic 
challenges, Armenia has forged ahead. I think you all deserve a 
lot of credit for those changes. These challenges, as we know, 
are particularly acute when you consider closed borders, 
Yerevan's delicate balancing act between Russia and the West, 
and what had up until recently been fairly weak democratic 
progress in Armenia since independence in 1991. When I look at 
Armenia, this is the government that has, I think, the biggest 
commitment and the best chance to really truly form democracy 
in Armenia since 1991. And I hope we take advantage of that.
    Now, Armenia's undergone a truly historic transformation 
following its Velvet Revolution in the spring of 2018 that has 
ushered in an unparalleled opportunity for democratic and 
judicial reforms that had been stymied by the previous 
governments. Last December's Parliamentary election and 
sweeping victory for the prime minister and his coalition has 
created unprecedented conditions for the Armenian Government to 
act quickly on the Velvet Revolution demands. In effect, they 
have a mandate to make these changes and to do them.
    I appreciate what Miriam has said about the speed of those 
reforms and the need for the government to move forward. That 
even with high popularity ratings, that I think any politician 
would be envious of, there's still a period in which the public 
will look back and say whether or not their hopes and 
aspirations, those that were played out in the Velvet 
Revolution, actually come to fruition. And I will just say that 
I've seen this other--where you're talking about the Maidan in 
Ukraine, where you have these high expectations of the public, 
and at times you don't necessarily have the government in place 
to carry out those reforms. I think in Armenia, you do.
    And Miriam mentioned, I think, one of the largest problems 
that they have in doing this is the judicial system itself, 
which is an impediment--which is often an impediment in a 
number of countries in the region. Moldova recently went 
through this same exact challenge with its judicial system. And 
you see these same type of challenges in Ukraine today, where a 
new high anticorruption court was just formed as a means, in 
effect, to rebuild a judicial system to address corruption. So 
these challenges are deep. But at this point in time, these are 
really unprecedented conditions of the Armenian Government to 
carry out reforms.
    Notwithstanding this transformation, we know that these 
reforms are incomplete. The government's been in place. We know 
that the prime minister took over shortly after the Velvet 
Revolution, but also he didn't have a parliament with him 
capable of carrying out reforms until January of this year. So 
we're on to about month number 10 to carry out reforms in a 
system that was incredibly corrupt. And those vestiges remain.
    And so I think, on one hand, there needs to be speed, but 
also we need to recognize that these things will take time. And 
even in the best of circumstances, if you look across this 
region, it will take a number of years before reforms are not 
only passed, but implemented. And that's really important for 
partners of Armenia that are thinking about supporting Armenia 
or thinking about, as you're talking about, legislation and 
about how best to support this.
    So helping Armenia to succeed is not only important for our 
meetings themselves, but I also want to just point out that 
it's really important for U.S. and European efforts to advance 
democracy, combat kleptocracy and illiberalism across Europe, 
Eurasia, and globally. And I think this is so important.
    The Helsinki Commission has been at the forefront of this 
for years to address these challenges; even recently held 
hearings. It's a challenge that we're facing globally. And in 
Armenia--success there is such an important thing for others, 
both in its region and globally. So we know this is in the 
interest of the United States for this to succeed.
    Armenia's revolution, which no one could have predicted, is 
an opportunity for Armenians to break free of entrenched 
corruption that has held back this nation politically and 
economically, and put the future of this nation of 3 million in 
the hands of its people. I want to applaud the Armenian 
Government's reform plan, which is to be commended, which 
focuses on the key importance of democracy, development of 
democratic institutions, rule of law, equality before the law 
for all, the existence of an independent judiciary, and an 
introduction of effective mechanisms of checks and balances.
    It was mentioned earlier too how important this is, 
especially with a new Parliament in place, that you don't want 
to--in Armenia or in this region--to have power concentrated in 
one body and one hand. And hopefully the work that you're doing 
will help them move forward in that direction.
    So, for Armenia to carry out this ambitious agenda, it's 
incredibly important for partners of Armenia, including the 
U.S., the Helsinki Commission, and Congress, to support this 
transformation by providing necessary assistance and resources 
and working with the Armenian people, civil society and 
government.
    U.S. policy toward Armenia should also include a strategy 
that greatly enhances Armenia's independence, which we haven't 
talked as much about today, and expands its political, 
economic, security and energy options. Russia was mentioned 
briefly by one of our speakers. And if you look down the line 
at the dependence of Armenia on Russia in a number of sectors, 
you know this is a challenge. But it's important that Armenians 
should be free and independent to determine their own future 
domestically and internationally.
    Commissioners, and Members of Congress, your continued 
leadership in this effort is critical twofold. First, your 
leadership is needed as legislation and assistance for Armenia 
currently making its way through Congress is passed and ensure 
that the assistance is funded and targeted appropriately. And I 
think this is really important. It was mentioned that USAID and 
the U.S. Government has pivoted over the last year. And I think 
that's really important. But even the passage of legislation 
and passage of new funding for Armenia has to be followed all 
the way to the end point as well.
    And I'll just say that we've seen a real change in the 
language of how the U.S. Government is engaging directly with 
our Armenian counterparts. And I think this is really 
important. As many of you know, there is an ongoing process 
over the last year called the U.S.-Armenia Strategic Dialogue, 
which was to discuss cooperation on strategic reforms and 
promoting shared democratic values and deepening cooperation. 
And this is really important--it was meant as an effort by the 
U.S. Government to recognize that the relationship has changed, 
that things in Armenia have changed.
    And so I think the most important thing we can do is to 
continue to encourage that type of cooperation. USAID has 
launched a number of new initiatives and projects over the last 
year, one on energy security, one on good governance, and 
others dealing with economic reforms and economic growth. Those 
are going to be critical to continue.
    The other aspect too is that the U.S. is not the only 
country that's providing support for Armenia. There's an 
agreement with the European Union, a comprehensive agreement, 
called CEPA. The EU provides 40 million euros annually and 
share some of the same goals and objectives of the United 
States in this space. It would be incumbent on the U.S. to work 
more closely with the EU and Armenia, and also to continue to 
try to provide the resources to help support Armenia's growth.
    We can get more deeply into some of the details of this, 
because I know we've got a short time. I just want to thank the 
commission again for the opportunity to speak today.
    Thank you.
    Mr. Veasey. Mr. Katz, thank you very much.
    And I'd like to now take the time to recognize Mr. Pallone. 
He needs to leave soon. But he does have some questions that 
he'd like to ask. I recognize Mr. Pallone to speak.
    I do want to acknowledge Representative Sheila Jackson Lee 
from the 18th Congressional District in Texas. Thank you for 
joining us.
    Ms. Jackson Lee. Thank you.
    Mr. Veasey. Mr. Pallone.
    Mr. Pallone. Well, thank you, Mr. Veasey. I apologize. I 
feel bad going in front of the other commissioners.
    But I'll be brief. I'm going to ask three questions, and 
two of them of Ms. Lanskoy. Right? And I apologize to Mr. 
Danielyan and the others from Armenia, but I got a chance to 
talk to you in Armenia. So I want to ask them something. 
[Laughs.]
    One was about the media and the other was about the role of 
parliament. And in each case, these were things that we 
discussed with the Armenian MPs when we were in Armenia a few 
weeks ago. And you talked about the media. And, of course, they 
were very concerned, the MPs, about the fact that the media 
continues to be controlled by the oligarchs and by the forces 
of the previous government, essentially.
    And they had asked that when they came here to meet with us 
in November, that we set up a meeting with the FCC, our Federal 
Communications Commission, because they were basically saying, 
What can we do to set up some kind of a structure with regard 
to the media?
    Now, you mentioned problems with licensing. You talked 
about moving to a more independent online. How could we be 
helpful? Like, what is the role of the FCC, for example, in the 
U.S. that doesn't exist in Armenia that we could use in 
preparation for this meeting to say what we could do?
    I know they've heard about the FCC, but they weren't too 
specific about exactly how that could be emulated or whatever. 
You want to talk about that?
    Ms. Lanskoy. Yes. Thank you for that question.
    I don't necessarily have a good answer in terms of whether 
the FCC itself as a model would be correct here. But there 
needs to be a strategy for how to approach fairly the question 
of licensing broadcasters. That could be the FCC. That could be 
other places that have had successful----
    Mr. Pallone. Is part of it----
    Ms. Lanskoy. ----transitions.
    Mr. Pallone. I'm trying to remember. I think a lot of it 
was they were concerned about transparency and ownership. In 
other words, here, when you own a station there's transparency 
of ownership, which doesn't necessarily exist in Armenia.
    Ms. Lanskoy. Oh, so transparency of ownership is a key 
issue. And that's something that could be put in place, I would 
think, more easily than the whole question--you have to come up 
with some fair process for which stations are going to continue 
to have licenses and which ones shouldn't, right, and on what 
basis you would award new licenses.
    But you absolutely should be able to--and this was done in 
Georgia, frankly. There was a long time when it was not well 
documented, and you understood that there were intermediary 
owners and you could never get to the bottom of who actually 
owned a station. That should not be so complicated to do. And 
we could come up with examples of where that has been done.
    Mr. Pallone. All right. I know----
    Ms. Lanskoy. I mean, I think there are others.
    Mr. Pallone. I've got to be brief because I want to get to 
two other things, but go ahead. Arsen, if you want to just----
    Mr. Kharatyan. I just wanted to pick up, Congressman, 
because it is an important and pressing question. Currently the 
Parliament is discussing the new law on media. And in 2021, we 
have the frequency competition coming up. They're looking at 
different models of how you can limit one person from owning 50 
percent of the public TV frequencies.
    Mr. Pallone. Okay.
    Mr. Kharatyan. So they're going to limit the ability for 
one or two owners who own, let's say, three, four available 
frequencies. If they want to have it in the private space, 
that's fine. But I just wanted to point out----
    Mr. Pallone. No, I appreciate that. And, Mr. Veasey, we'll 
continue with this.
    But let me get in my second question, because I have three 
and these guys are going to get tired of hearing from me. 
Second one is you talked about the role of the Parliament 
versus the executive. Now, of course, we have that problem here 
increasingly too, so I don't know that I want to use the U.S. 
as an example; but, in other words, having professional and 
research staff, which, of course, we do in the Congress. Just 
develop that a little more for me, how that can make a 
difference.
    Ms. Lanskoy. If I'm not mistaken, there's almost no 
professional staff. There's a dozen professional staff in 
Parliament. Is that right? So there's a woeful lack of staff. 
And the idea that members such as yourselves could cover all of 
those areas, especially when there is time pressure--so when I 
say that reforms need to come quickly, I also understand that 
there's this whole range of problems. And, yes, there's no 
committee staff. There's hardly any personal staff.
    Mr. Pallone. Do you want to say something quickly, Mr. 
Danielyan?
    Mr. Danielyan. Very quickly, I want to reflect, because the 
speed of reforms is directly related to the capacity of the 
parliament. And we should be aware that we are talking about an 
institution that we inherited that used to be a rubber-stamp 
parliament that was there simply to ratify whatever came from 
the executive, while, from the day one it was announced that 
the political reforms are going to be designed in the 
Parliament. And for this we need capacity. And oftentimes the 
speed--for example, including the working group that I'm 
coordinating--depends on the lack of institutional capacity and 
processes.
    Mr. Pallone. Sure.
    Mr. Danielyan. I should recognize also here the support--
the certain level of support that we are getting from USAID 
programs----
    Mr. Pallone. That too.
    Mr. Danielyan. ----in terms of electoral affairs, I have 
mentioned; IRI, for example, in terms of conducting evidence-
based policy reforms. They are in Armenia doing public-opinion 
polls. Once I return to Armenia, we are going to have town-hall 
meetings to discuss this--with the support of IRI to discuss 
these changes in the law, political parties. But a separate, 
well-designed intervention that would support institutionally 
the Armenian Parliament, we very much appreciated because 
that's also defining the pace of the reforms in Armenia.
    Mr. Pallone. And we can talk about this when the MPs come 
over here in November.
    But my last question was for Mr. Ioannisian. Almost 
everything that I mentioned, as Mr. Veasey knows, comes under 
our committee, of course. These are things that relate to our 
Energy and Commerce Committee.
    But you talked about independence for energy and dependence 
on Russian natural gas. What would you have us do? In other 
words, we're the energy committee, Energy and Commerce. We have 
had set up programs with Israel, for example, for energy 
independence. What would you have us do to move in the 
direction you're suggesting of less dependence on natural gas, 
and therefore less dependence on Russia?
    Mr. Ioannisian. Thank you very much, Mr. Congressman. If I 
could also to say a few words about the media.
    So, in Armenia, there is no way to run a profit-making 
media outlet because the market is small, and other reasons. 
For that reason, all the media outlets that are independent, 
they are supported by the West generally, mainly by the United 
States. It is by the National Endowment for Democracy. This is 
why the State Department and Open Society Foundations are also 
very active. But if we want to have more independent media in 
Armenia, this media should be directly supported.
    Regarding your question on independence from the viewpoint 
of energy sector, I should mention that one-third of 
electricity in Armenia is produced by natural gas. Also, we 
have a nuclear power plant which is producing approximately 
one-third of electricity----
    Mr. Pallone. And a lot of the MPs mentioned hydropower too.
    Mr. Ioannisian. Yes. And the rest one-third is hydropower. 
But the nuclear power plant should be shut down probably in 
more or less 7 years. It cannot work forever. And, because 
hydropower is quite limited and it can't be kind of raised, 
this will lead to have more portion of electricity produced by 
natural gas. And the natural-gas monopoly in Armenia belongs to 
Gazprom Armenia, which 100 percent belongs to Gazprom.
    So to have more independence in energy sector, we will need 
other sources of electricity.
    Mr. Pallone. Are we talking about renewables? Solar? Wind? 
What are we talking about?
    Mr. Ioannisian. It could be a power--nuclear power plant. 
It could be solar. I don't think that wind will work in 
Armenia. I'm not sure. Solar could work. Now, there are some 
programs supported by European Union for householders to have 
solar-power panels. But also--solar-power panels are quite 
limited and the efficiency is quite limited. So----
    Mr. Pallone. I mean, it seems to me--Mr. Veasey, I know 
you're from oil country, so I have to be careful. [Laughs.] 
He's from Texas, you know.
    Mr. Veasey. [Off mic.]
    Mr. Pallone. [Laughs.] But what I was saying is we did 
something with Israel on energy, cooperation. Maybe we could do 
something similar with Armenia and look into that.
    Mr. Danielyan. Congressman, quickly----
    Mr. Pallone. Go ahead.
    Mr. Danielyan. ----if I may add, as Daniel mentioned, yes, 
by large we are dependent on gas from Russia. And the other 
source is Iran, if you remember. And that is----
    Mr. Pallone. Oh, sure.
    Mr. Danielyan. ----another. And you don't pick your 
geography, as they say. So solar is the way to go. I will just 
mention this. In one of the regions near Lake Sevan, there was 
research that showed that it has the largest number of solar 
energy throughout the year, over 300 days. And I think the 
Government of Armenia has prioritized solar to be the way to 
move forward. The key part of it is to be able to sustain it 
within and not import the panels or anything else. So, 
producing the solar panels and making some kind of a chain of 
sustainability might be a key area to look into.
    Mr. Pallone. Okay, thank you.
    Mr. Katz. Can I just add, too? I mean, just on energy, 
there is ongoing U.S. Government cooperation with Armenia on 
energy. One of the issues has been trying to connect Armenia 
back to back with Georgia on electricity and then connecting it 
to the wider European energy market.
    What that will take, though, which is really important, is 
that the U.S. Government has gone in to provide resources for 
legal and regulatory changes that are needed for Armenia to 
comply with EU energy laws. And that really is important. That 
connection is important. It's what we've been trying to do both 
with Moldova and Ukraine as well. It's to try to connect them 
to safer energy partners and provide some real security. But I 
think it's----
    Mr. Pallone. You know, one of the----
    Mr. Katz. ----happening right now.
    Mr. Pallone. Well, one of the things that we used to have--
and I'm going back; Mr. Veasey won't remember because he's too 
young, I don't know if anybody in this audience will remember, 
but there was a time when we had, through the Appropriations 
Committee, a--I don't know what it was called--but it was like 
a trans-Caucasus pot of money. It was set aside every year in 
the appropriations process for the Caucasus. And it could only 
be tapped if two of the three countries cooperated. It was 
Georgia, Armenia and Azerbaijan.
    And it was set up as a way of trying to create cooperation 
and lessen tension, if you will, between the three Caucasus 
countries. And, if Georgia and Armenia got together--it would 
be nice if it was Azerbaijan too, but that's less likely--then, 
we'd get the funding for that. And it could have been like a 
water project or an energy project or whatever. We should 
probably look into something like that again, because that 
would be also a cooperative effort in the Caucasus that could 
be a source of funding that brings the countries together.
    Mr. Katz. Absolutely. And I think Georgia is a good example 
of a country that was greatly dependent on Russia and has 
completely removed that dependency on Russia through other 
means. Georgia is such an important partner for Armenia, 
particularly in this energy sector. And I agree. I think the 
resource levels that USAID has been working with and the U.S. 
Government are probably not sufficient enough to move the 
needle completely. So it's an area that should be looked at.
    Mr. Pallone. And I don't mean to suggest--I'll end, because 
I took up too much time, but I don't mean to suggest in all of 
this that somehow Armenia shouldn't be cooperating with Russia, 
because I know that that's necessary for military and security 
purposes as well. But I don't like to see the oligarchs control 
the energy sector or the media sector or anything, because it's 
not just a Russian issue; it's an oligarch issue. And it's 
antidemocratic. So that's important too.
    Thank you, my colleague.
    Mr. Veasey. Chairman Pallone, thank you very much. I 
appreciate you joining us today.
    And I have a few questions myself that I wanted to ask. 
Mine specifically revolves around corruption, because I know 
that has been an issue in a lot of former Soviet States and 
regions in being able to move forward, quite frankly. And I've 
visited the Ukraine and have seen it personally myself and know 
that that was something there that came up over and over again, 
and know that it's been an issue here. But I know that this new 
government has adopted a new national anticorruption strategy, 
and I was just wondering if you might be able to update us. 
Maybe Mr. Katz or Mr. Ioannisian, if you could update us on 
what are the key goals of this national strategy on 
anticorruption, and what is the status of this implementation?
    Mr. Ioannisian. Thank you very much, Mr. Chairman. I should 
say that the anticorruption strategy was prepared during the 
last 5 months, maybe 6 months. The preparation process was 
quite inclusive. Civil society actors were involved in 
discussions.
    So basically there are a few main things. First is that 
we're going to have, finally, a specialized law enforcement 
body [that] probably is going to be called Anticorruption 
Committee, which will fight criminal offenses of corruption. 
This body will include us investigators who will investigate 
the cases, but also it will include intelligence bodies who 
will find the cases.
    It is also important that we will have comparatively new 
regulations regarding illegal enrichment, illicit enrichment, 
which is also a very efficient way to fight corruption. So 
also--beneficial ownership of mining sector is very important 
that we will have probably next year. This is also very 
important issue for transparency and for preventing corruption 
regarding mining sector.
    There are many issues, I'm not aware of all the details 
because the document is more than 50 pages, but I'll be happy 
to provide it later.
    Thank you.
    Mr. Katz. I was going to suggest to you that a member of 
parliament who is sort of pushing this through right now would 
have a good sense on the exact timing of what's going to happen 
next.
    Mr. Danielyan. Thank you. Well, I would just want to add 
certain directions that are part of the strategy. It's 
including, well, strengthened, enhanced institutional capacity 
to fight corruption with the revision of the whole 
institutions, and this commission will be tasked--we have a 
broader mandate and toolkit. For example, in the Parliament we 
are discussing that also financial oversight of political 
parties should be part of this institution, and there are 
successful cases from post-Soviet space where this is 
implemented. Other things that are part of the strategy is a 
mechanism for stolen asset recovery, strengthening of 
whistleblower protection, increased transparency and 
accountability of public offices and enhanced integrity through 
comprehensive declaration of assets and interests, and as well 
as anticorruption education and awareness raising. So it's a 
quite comprehensive strategy.
    Mr. Veasey. Thank you.
    Mr. Ioannisian. Mr. Chairman, if I just add, sir, that 
regarding stolen assets recovery, I guess the United States of 
America can be very good ally for this reform in Armenia, 
because I'm pretty sure that many stolen assets are kept in 
United States.
    And the second thing regarding Anticorruption Committee, it 
would be very useful if the FBI or other law enforcements from 
United States would share their experience, would train these 
new law enforcement bodies, because such trainings were very 
useful in other post-Soviet countries.
    Thank you very much.
    Mr. Veasey. Thank you very much. And I know we've kind of 
talked a little bit about corruption and judicial reform. Was 
there something--because obviously we weren't there, and I 
don't know what all was said during the campaign, and it may be 
better if you want to put members of Parliament on the spot--
but I just wanted to know, were there some things, any promises 
that--maybe Ms. Lanskoy--any promises that were made during the 
campaign that are going to be hard--obviously, although there 
are going to be challenges for any promises to be kept, but if 
there are some that are going to maybe be more tough than 
others that we should be concerned at--looking at them down the 
road?
    Ms. Lanskoy. I think it's going to be tough to deliver. The 
expectations are very high. Pashinyan made sweeping promises 
also about economic growth with--and growth of the population, 
but--that Armenia can flourish over the next several years to 
deliver the kind of growth he's talking about.
    It's great to set really high expectations and try to reach 
them, but whether that's realistic and--what can we do to help 
that come to fruition? Can we think through economic strategies 
and socioeconomic programs that may keep more Armenians at home 
so people don't have to leave the country to find work? Can we 
help them think through other kind of growth-oriented reform, 
infrastructure projects?
    And, of course, rule of law is key to attracting 
investment; the kinds of anticorruption plans being discussed, 
that's very important in the dialog with the EU that unlocks a 
lot of EU funding.
    I think these are difficult challenges that they have set 
for themselves, and if we can work with them on a number of 
them, I think it could be productive. It might not reach the 
really high standards that they've set for themselves.
    Mr. Katz. Can I just add to this, too? I think with the 
challenges that there's these great expectations that have been 
made, and turning plans into policy, into law and implementing 
it is a huge task. So even with the greatest intentions, it's a 
difficult task.
    Miriam mentioned earlier, I think that one of the biggest 
challenge will be the judiciary, which is connected to the 
previous regime. And so, if you're pushing constitutional 
reforms and the courts are rejecting those reforms, it's 
problematic. If you're prosecuting someone who should be 
prosecuted for committing acts of corruption or other acts and 
you don't have a judiciary that's independent, it's 
problematic. So the vestiges of that old system that's in the 
media, that's why it was mentioned before how important it is 
for the U.S. to keep funding independent media or other 
partners, because that's really the only way in an 
unsustainable media market to have independent media, to 
continue to do that.
    And just last, on Russia and sort of other malign 
influence. I think the Congressman's correct--Armenia obviously 
has a close relationship with Russia, has to balance that 
relationship, but it's really--I think we have to recognize 
that when you see Mr. Pashinyan on the one hand--there was a 
great picture of him at a recent Eurasia Economic Union event, 
a selfie with him and Mr. Putin and other Central Asian leaders 
who're part of the Eurasian Economic Union. You know that 
they're on sort of different spectrums of democracy--human 
rights and sort of corruption. They're representing two 
systems. I believe as soon as Russia believes that it's not in 
their interest to have this government, they will ratchet up 
the pressure on this government. And it's something that will 
be a challenge because there's obviously a deep security 
relationship and energy relationship. And so we have to take 
that into account, that there are other forces that are pushing 
in the opposite direction of where the government wants to go.
    And last I would just say is new partners like China, it's 
so important--I think China is the second-largest trading 
partner of Armenia now, and it's important to know that as 
China is seeking to invest, that the Armenian Government makes 
certain that transparency is part of this process. Even small 
countries like Armenia can say that these are our standards.
    And that also, as Armenia's corruption is addressed and 
people look at Armenia as a market to invest, bringing in more 
competition for energy projects, mining and mining projects for 
minerals, is really important.
    And I just want to say that to you Armenians, it's tough to 
get that direct foreign investment, but be careful. The Chinese 
investment always comes with the blessing and approval of the 
Chinese Government. And I think that in Yerevan, you have the 
means to push for the type of transparency that's necessary to 
make certain that any investment doesn't come with bad strings.
    Mr. Veasey. Please.
    Mr. Kharatyan. Just to add to what already has been said, 
when it comes to promises and deliverables, this year alone, 
this administration has built more roads than the previous one 
in the last 3, 4 years--over 300 kilometers of roads, and the 
quality hopefully should be assured. That's big, in a country 
that was completely corrupt, where physical infrastructure was 
so damaged, it was almost impossible to go from one town to 
another.
    Last year, in 2018, it was the first time for the last 8 
years when we had more people coming into the country than 
living. We had a very big problem with migration. People were 
leaving the country for various reasons and now we have a 
surplus.
    Foreign debt. For the first time we started paying off our 
foreign debt and taking less. In 2018, at least so far, basic 
salary has been raised probably in the last 5 years for the 
first time, 20 percent. I'm just giving you figures of very 
specific reforms that have already been adopted and done using 
the state budget. And the number of tourists, if you wish. 
Again, it's endless. I've never seen Yerevan, Armenia as lively 
as it used to--as in the last decade or so. I mean, it's a 
vibrant--it's a happening place, and I'm sure all of us, 
including our MPs, are inviting you to visit us the sooner the 
better, to see it with your own eyes.
    Mr. Veasey. Sir?
    Mr. Danielyan. Just a couple of sentences regarding the 
expectations and deliverables. Two-thirds of Armenian citizens 
are expecting from us, from our government, to resolve economic 
and social issues. Those are high in the priorities, maybe up 
three, four out of five.
    [For me] personally, as a legislator, democratic reform is 
No. 1, and that's why I got into the Parliament actually. But 
we need to recognize that, in the end, it's about economy and 
the economic performance and social needs of the people. 
Therefore, for our government to succeed, to be successful in 
terms of democratic reforms, institutions, but I think it's 
also very important how the economy will be performing for the 
next year. And here, that's why I also want to return to the 
idea from aid to trade, and also the importance of the United 
States to have a role in this regard.
    And building upon the invitation, I want to extend it also 
as an open invitation to visit Armenia and see the changes and 
maybe even the upcoming best occasion might be the elections 
that are going to happen--Nagorno-Karabakh Republic, also known 
as Artsakh, which are also very important for establishing 
democratic institutions there. In March, there is going to be 
elections, both for president and also the Parliament, and it 
was previously a Congressman from the United States had visited 
and observed the elections and the dynamics. I hope we will see 
also people during this upcoming March.
    Mr. Veasey. Thank you very much.
    Mr. Ioannisian. Mr. Chairman, if I may, just two words 
about elections in Karabakh.
    Mr. Veasey. Yes.
    Mr. Ioannisian. Because as a head of an NGO who observed 
last local elections in Karabakh of around months ago, I should 
say that this is very important. This is not--if someone is 
observing those elections, this doesn't mean that this is a 
recognition of the dependence of Nagorno-Karabakh. But Nagorno-
Karabakh is in the OSCE region, and people there should feel 
the freedoms and rights that anyone in the OSCE region should 
feel. And they should have a right to elect their government, 
to have good elections. And I guess the international society 
should support that.
    Thank you very much.
    Mr. Veasey. Thank you very much. Well, we have concluded.
    I really appreciate everybody's comments and remarks. I 
know that the other commissioners that were here and also the 
other Members of Congress that were here really enjoyed being 
able to ask you some questions.
    Well, this is obviously an area of ongoing concern and 
observance here in the U.S. Congress and Armenia, and how the 
situation there is going. So we appreciate you taking time to 
come all the way out here, guests that are here.
    Thank you for your expert testimony, and this hearing is 
now concluded. [Sounds gavel.]
    [Whereupon, at 3:44 p.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Hon. Marc Veasey

    Good afternoon and welcome. This U.S. Helsinki Commission 
hearing on ``Reform in Armenia: Assessing Progress and 
Opportunities for U.S. Policy'' will come to order.
    Eighteen months ago, the people of Armenia began marching 
in the streets in a massive protest and civil disobedience 
movement that would come to be known as Armenia's Velvet 
Revolution. Yerevan, Armenia's capital, had seen waves of mass 
protest in recent years but no one could have predicted that 
this manifestation of popular will would achieve the 
transformative change it has so far.
    At the beginning of last year, it was difficult to imagine 
that the ruling Republican Party of Armenia's grip on power was 
so tenuous that it would recede and effectively vanish from 
politics in a matter of months after being in power for more 
than two decades. What's more, the government's history of 
violently suppressing protests meant that demonstrators knew 
theirs was a dangerous and inauspicious undertaking.
    Few knew these lessons better than Nikol Pashinyan, the 
opposition leader at the center of the Velvet Revolution, who 
was forced into hiding and jailed after helping organize 
protests against the initial election in 2008 of President 
Serzh Sargsyan--the very leader he helped depose last year to 
become Armenia's current prime minister.
    The fact that this revolutionary political change took 
place without a shot fired is a testament to the strength, 
unity, and discipline of the protest movement as well as to the 
responsible decision-making of government officials who 
declined to resort to violence to cling to power.
    The 2018 protest movement coalesced around the demand to 
stop the term-limited President Sargsyan from becoming prime 
minister but quickly grew to encompass broader goals: demanding 
an end to systemic corruption, respect for the rule of law, and 
economic justice. These are the demands that vaulted opposition 
legislator and protest leader Nikol Pashinyan to a landslide 
victory in parliamentary elections in December 2018.
    As we near the one-year anniversary of this historic 
election, the Helsinki Commission is convening this hearing to 
gauge how the Armenian government is delivering on its 
revolutionary promise. What has it achieved so far and where 
should it channel its focus in its second year and beyond? We 
are interested in how U.S. policy is adjusting to this unique 
political opening. Are our assistance levels adequate and are 
they properly tailored to promote the freedom, security, and 
sovereignty of the Armenian people? And given our mandate as 
the Helsinki Commission focused on the Organization for 
Security and Cooperation in Europe: how are multilateral 
institutions like the OSCE responding?
    I am pleased that we have with us today some leaders of the 
Congressional Armenian Caucus who have trained their focus on 
these questions and introduced appropriations language that 
would double U.S. assistance to Armenia for the sake of 
bolstering democratic reforms.
    I also understand that USAID has responded to the political 
transformation in Yerevan by undertaking a strategic 
reassessment of its programming in the country: my hope is that 
this hearing will generate substantive recommendations for how 
to orient USAID's forthcoming programs toward the most critical 
reform priorities.
    In the realm of multilateral assistance, this Commission is 
particularly interested in Armenia's engagement with the OSCE--
the regional security organization this Commission tracks as 
part of its statutory obligations. Regrettably, however, OSCE 
assistance to Armenia's reform objectives is hamstrung by the 
closure of the OSCE's Field Office in Yerevan since 2017 when 
the Government of Azerbaijan unilaterally blocked the consensus 
required to extend the office's mandate. Without this office, 
it is more difficult to maintain regular OSCE engagement with 
the Armenian government to develop and implement important 
training, capacity-building, and policy development 
initiatives.
    In response to the OSCE Field Office's closure, the United 
States initiated an Armenian Cooperation Program that draws 
together voluntary contributions from OSCE participating states 
to support OSCE programs in the country. The Armenian 
Cooperation Program is contributing to the government's 
security and economic reforms, but this partnership should 
extend to judicial independence, parliamentary oversight, and 
free and fair elections. I hope that this hearing can serve as 
an encouragement to our partners in the OSCE to increase their 
commitment to Armenia's reform program through contributions to 
this U.S.-led initiative. I also hope that Azerbaijani 
authorities will reconsider their decision to block the mission 
and welcome discussions to reopen it.
    Before proceeding further, I would like to thank Helsinki 
Commission Chairman Alcee Hastings for the opportunity to chair 
today's hearing on an issue of profound importance not only for 
the people of Armenia but for the future of democracy and human 
rights in Eurasia and the OSCE region as a whole.
    At this time, I would like to acknowledge my fellow 
Commissioners and members of the Congressional Armenian Caucus 
in attendance for any opening remarks they wish to make.
    We have assembled an excellent panel to discuss 
developments in Armenia and provide their recommendations for 
the path forward.
    We are honored to have with us from Yerevan a distinguished 
parliamentarian from Armenia's National Assembly and member of 
the ruling My Step alliance, Hamazasp Danielyan. Mr. Danielyan 
spent much of his career working in civil society and managing 
democracy promotion programs in Armenia. In the National 
Assembly, he serves as the coordinator of the parliamentary 
working group on electoral reform.
    Next we will hear from Arsen Kharatyan, founder and editor-
in-chief of AliQ Media, an independent Armenian news outlet 
based in Tbilisi, Georgia. Mr. Kharatyan is a founding member 
of Prime Minister Pashinyan's Civil Contract party and served 
as a senior advisor to Pashinyan during the first 100 days of 
his tenure as prime minister.
    Our third witness, Daniel Ioannisian, is also visiting from 
Yerevan where he works as program director for the Union of 
Informed Citizens, an NGO focused on developing Armenia's 
independent media sector and tackling issues such as 
disinformation and media literacy. As a political activist and 
civil society leader, Mr. Ioannisian has developed expertise in 
many areas of democratic reform and currently serves as 
secretary of the parliamentary working group on electoral 
reform led by Mr. Danielyan.
    After Mr. Ioannisian, we will hear testimony from Miriam 
Lanskoy, senior director for Russia and Eurasia at the National 
Endowment for Democracy. Ms. Lanskoy has 14 years of experience 
studying and supporting democracy promotion in the former 
Soviet Union.
    Lastly, Jonathan Katz, senior fellow at the German Marshall 
Fund, will testify drawing on his considerable experience 
managing U.S. assistance programs in the former Soviet Union. 
From 2014-2017, he served as deputy assistant administrator at 
the U.S. Agency for International Development, where he managed 
U.S. development policy, energy security, economic growth, and 
democracy, and governance programs in Eastern and Central 
Europe and the Black Sea and Caucasus Regions.
    I will refer you to the materials in your audience handouts 
for the full biographies of our witnesses. Thank you to all our 
esteemed witnesses for being with us today. I look forward to 
hearing your expert assessments and hereby invite Mr. Danielyan 
to begin his testimony.

                Prepared Statement of Hon. Jackie Speier

    Thank you, Chairman Veasey. I want to thank you and for 
holding this crucial hearing on Armenia's peaceful democratic 
revolution.

    Over the last year and a half, I have watched with 
excitement and admiration as Armenia's people have transformed 
their government from a staid autocracy to burgeoning 
democracy--all without a shot fired. Seared in my mind are the 
signature images of Armenia's velvet revolution--hundreds of 
thousands of women and men in the streets protesting. Children 
blocking the roads with their toy cars. And that defiance 
turning into joyful dancing and singing as Armenia's people and 
future carried the day.

    Two weeks ago, I had the privilege to visit Armenia as a 
member of the first dedicated Congressional trip to the country 
since the revolution. I could not be more excited, encouraged, 
or enthusiastic about the progress I saw.

    Armenia's democracy is brand new. 102 of its 132 
parliamentarians have never held public office. And its 
bureaucrats inexperienced. But, I have good news. They are up 
to the challenge. I was blown away by the bright young people 
who will define Armenia's next chapter. They have much work to 
do: building political parties, reforming institutions, and 
writing and implementing laws. But they're up to the challenge.

    Armenia's young people are brilliant, engaged, and capable. 
And they understand they must act quickly to take advantage of 
their unique opportunity to define their country's future. They 
know--from the youngest member of parliament to the Prime 
Minister--that Armenia must reform the justice sector, build a 
modern, efficient bureaucracy, reform the constitution and 
electoral code, and improve the country's infrastructure and 
delivery of basic services like trash pickup and street 
cleaning. All we need to do is follow their lead.

    That effort began when my amendment to allocate an 
additional $40 million in democracy aid to Armenia received a 
resounding 268 bipartisan votes on the House floor. And it 
continues with this hearing. Going forward, we must continue 
highlighting Armenia's progress, assisting its government, and 
partnering with its parliamentarians.

    We must also ensure that Armenia's leaders understand that 
taking advantage of their special, limited opportunity to 
define their country's future will require laying out specific 
plans. The issue of corruption stands out especially--ad hoc 
arrests of corrupt figures will not have the same legitimacy or 
efficacy as a sustained, organized campaign within an 
understandable framework. That level of clarity, of course, 
would also aid reform efforts on issues from basic services to 
the constitution.

    Armenia has come so far in such a short period. It's 
remarkable, inspiring, and a reminder that--even in the shadow 
of growing global autocracy, even in a neighborhood filled with 
bad actors, and even when it seems most distant--the flame of 
democracy burns bright and we can help it grow.

    Thank you again for holding this hearing and thank you to 
our witnesses for sharing your knowledge. I look forward to 
learning more about how we can help Armenia's democracy grow 
and prosper.

                Prepared Statement of Hon. Frank Pallone

    Thank you to the U.S. Helsinki Commission, Chairman Veasey, 
and Co-Chair Wicker for holding this important hearing.
    I would like to start by acknowledging the incredible 
progress Armenia has made since I first visited in the 1990s. 
This is especially true of the last year, where we saw a 
grassroots movement take hold during the ``Velvet Revolution'' 
starting in April 2018. Last December, that revolution 
culminated with the freest, fairest and most open national 
elections in the country's history. These elections brought in 
one of the youngest and most reform-minded legislatures and 
executives that Armenia has ever had.
    I had the pleasure of meeting several of these individuals 
during my recent visit to Armenia and Nagorno Karabakh earlier 
this month. I was struck by the sense of opportunity and 
promise imparted by Prime Minister Pashinyan and his My Step 
alliance--and by the incredibly hopeful mood that can be found 
throughout the country.
    There is progress being made and a real sense of momentum 
within this young government. However, one should not ignore 
the major changes that are still needed to fulfill the goals of 
the revolution. This includes bolstering civil society, 
strengthening its democratic and judicial institutions, and 
rooting out corruption in an even-handed way. These challenges 
will require immense focus on the part of the government, and 
it will require significant international investment and aid to 
ensure reform efforts take a firm hold. That is why I am 
working with the other co-chairs of the Congressional Caucus on 
Armenian Issues to encourage State Department and USAID funding 
for projects in Armenia.
    I have also introduced a resolution that aims to officially 
recognize the democratic reforms that are currently taking 
place. It reaffirms the critical importance of US-Armenia 
cooperation as well. My hope is that Congress will immediately 
take up and pass these measures to show full American support 
for Armenian democratic reforms. I believe that taking these 
steps and providing investments will build on the US-Armenia 
strategic relationship and help to grow the already thriving 
pro-democracy movement.
    We must continue to do more, committing significant 
resources to Armenia and Nagorno Karabakh, and I am hopeful 
that these efforts will yield success.
    Thank you again for holding this aptly timed hearing.

             Prepared Statement of Hon. Benjamin L. Cardin

    Good afternoon. We are here today to discuss an exciting 
and important development in the former Soviet Union and the 
OSCE region as a whole: a political revolution that has opened 
the door to long-overdue reforms in the Republic of Armenia.
    Last year, tens of thousands of Armenians went to the 
streets to put a stop to the creeping autocracy that was 
tightening its grip on the country. In Armenia, the same ruling 
party had prevailed in elections for more than two decades, 
bolstered by a vast network of political and economic 
corruption. As of April 2018, Armenia's president had ruled for 
ten years and was poised to evade his presidential term limit 
by assuming greater powers as prime minister under 
constitutional amendments he had championed.
    I stand in admiration of the Armenian people who declared 
in April of last year that `enough is enough.' The change these 
citizens brought about through nonviolence was almost 
impossible to imagine before they began their collective 
action. Over the course of just a few days in April 2018, 
peaceful protests and civil disobedience replaced the ruling 
party with an opposition-led government. By the end of the 
year, this newly-installed government held free and fair 
elections and was rewarded with a super-majority in the 
parliament and a resounding mandate to carry out its promises 
of sweeping political and economic reform.
    The central demands of the revolution were to fight 
corruption, uphold democracy, and build economic opportunity. 
Each of these goals is noble but none of them are easy. I look 
forward to learning from our witnesses today where these reform 
plans currently stand and how the United States can assist in 
realizing the democratic aspirations of the Armenian people.
    In addition to tackling corruption, strengthening the rule 
of law, building confidence in democratic institutions, 
advancing transitional justice, and growing the economy, I 
would urge the new Armenian government, in partnership with the 
United States, to regard the adoption of renewable energy 
technologies as a matter of strategic importance. As of today, 
Armenia's reliance on Russian and Iranian sources of energy 
leave it vulnerable to malign external influence that is 
hostile to democratic development in the country.
    Last year, as Ranking Member of the Senate Foreign 
Relations Committee, I commissioned a minority staff report 
detailing the Kremlin's decades' long assault on democracy in 
Russia and Europe. The report describes how Russia responded to 
``color revolutions'' in the former Soviet Union in the early 
2000s by channeling efforts and resources toward organizations 
dedicated to promoting the Kremlin's agenda or agitating 
against democratic gains. On this point, the report's findings 
are sobering: ``[m]ost of the Russian government's funding is 
focused on post-Soviet `swing states' like Ukraine, Moldova, 
Georgia, and Armenia.'' The Kremlin is dedicated to obstructing 
democratic movements at every turn or scuttling them 
altogether. I hope our witnesses today will address the role of 
Russian influence and disinformation in Armenia and provide 
recommendations for how to address it.
    Given the Turkish Government's ongoing military operation 
in northeastern Syria that threatens the peaceful coexistence 
of ethnic and religious minorities in that region, I want to 
reaffirm my longstanding support for official U.S. recognition 
of the Armenian Genocide perpetrated by the Ottoman Empire in 
1915. I worry that our refusal as a nation to explicitly 
recognize this historical fact impedes our ability to learn 
history's lessons--lessons that are of relevance to the events 
we are witnessing today. I reiterate my call for the Trump 
Administration to urgently reverse its policy of disengagement 
from northeastern Syria, which puts counterterrorism 
objectives, regional stability, and civilian populations at 
risk.
    In closing, I want to thank Chairman Alcee Hastings for 
keeping the Helsinki Commission focused on these developments 
in Armenia that bear important consequences for the future of 
fundamental freedoms and human rights in the OSCE region. I 
also want to extend my appreciation to my fellow commissioner 
Congressman Marc Veasey for chairing today's hearing--it is a 
pleasure to serve on the Helsinki Commission together where we 
can collaborate to uphold our shared values at home and abroad.

                Prepared Statement of Hamazasp Danielyan

    Thank you, Mr. Veasey, and thank you to the Helsinki 
Commission members. Let me start with thanking the honorable 
members of this distinguished Commission for organizing these 
hearings and bringing Armenia's democratic transformation under 
the spotlight. Your interest towards democratic developments in 
Armenia is very encouraging and the support is very much 
appreciated. I should say that, as a member of the 
Parliamentary Assembly of the Organisation for Security and 
Cooperation of Europe, we have established a good working 
relationship with the US delegation and its distinguished 
members. Though, I believe that there are still opportunities 
to further deepen our cooperation across all three dimensions 
of the OSCE.
    I believe today's hearing will contribute to that aim, 
especially in the direction of human rights and democracy. I 
also believe that Armenia's recent experience with its peaceful 
democratic transformation has much to offer for many countries 
in the region and across the globe. This experience and 
commitment to democratic values and human rights was recognized 
only a few days ago when Armenia was elected by over 140 UN 
member states to become a member of the Human Rights Council of 
the United Nations.
    Now, coming to the process of democratic transformation in 
Armenia, there are many aspects I would like to present. 
Instead of immediately diving into the texts of the reforms 
that are underway in Armenia, I thought it was important to 
provide some highlights of my personal experience over the last 
decade. It is a journey that is directly intertwined with the 
changes that are happening now in Armenia.
    Let me begin with the February 2008 presidential election 
that took place in Armenia. I was working in Yerevan for an 
important organization headquartered in the United States 
called IFES, the International Foundation for Electoral 
Systems. Our office supported the democratic elections in 
Armenia and was an observer to the systemic level of election 
violations that occurred. I cannot forget the efforts of a 
brave American woman by the name of Linda Edgeworth, who 
intervened on behalf of one of the local observers that was 
being harassed in a local precinct. There are about 2000 
precincts in Armenia and, unfortunately, they were not enough 
Lindas to prevent this systemic level of vote rigging. After 
this election, for ten days, citizens of Armenia protested 
peacefully on the streets. These protests culminated in one of 
the darkest days of modern Armenian history, March 1st, 2008, 
when fatal force was used by police and ten people were killed 
on the streets. Only a few months later in the summer of 2008, 
I remember conversations I had with my friend and fellow 
panelist Arsen Kharatyan here in DC about the democratic 
prospects for Armenia. Those were not very hopeful 
conversations. The prospects were not very bright. Despite 
that, I returned to Armenia with the hope of contributing to 
the continued democratic development of the country. One of the 
best and most secure ways to do so was joining USAID efforts. I 
spent most of my career working with different USAID projects 
aimed at the democracy and governance sector in Armenia to 
strengthen democratic institutions.
    Over the next years, I was hired as a country expert to 
review USAID's five-year strategy and after a number of failed 
attempts to make changes, it seemed Armenia was moving in the 
wrong direction. An important negative milestone in Armenia's 
autocratization was the adoption of constitutional changes in 
December 2015, which paved the way for that president, first 
elected in amidst the gunshots of 2008, to extend his rule 
beyond the two term limit by changing Armenia to parliamentary 
model, where he could stay on as Prime Minister. I clearly 
remember drafting the annual report for Freedom House in 2016, 
distressed at another year of stagnation for Armenia and that 
my country was approaching indicators that would likely soon 
see it downgraded to the classification of ``Not Free'', 
despite all the efforts of civil society, international 
partners and the handful of marginalized change makers within 
the government. I must admit that there were moments that when 
I started to doubt if I would ever witness genuine democratic 
changes or even a single free and fair election in Armenia 
during my lifetime.
    As we all expected, President Sargsyan was nominated to 
continue as Prime Minister in 2018. I had those same doubts in 
mind, even as I joined the protesters on April 14 in Freedom 
Square, the gathering place that had been the epicenter of all 
important developments in modern Armenian history, including 
its struggle for independence from the Soviet Union. At first, 
there were only a couple thousand of us protesters. I remember 
fellow panelist Daniel Ioannisian there with his drone, 
documenting the event. In a small chat with Arsen, we spoke 
about the necessity of raising our voices against this final 
step in Serzh Sargsyan's well-planned strategy to stay in 
power, even if it did not affect the final result. We did not 
want to see Armenia become another post-soviet country that is 
indefinitely ruled by a single person and a single party. It 
was to our great relief that that message resonated widely with 
the Armenian people. Only a few weeks later, we witnessed the 
protests grow so large it brought the country to a standstill, 
and successfully forced Sargsyan's resignation and the 
installation of protest leader Nikol Pashinyan as the new Prime 
Minister.
    Soon after, in July 2018, Prime Minister Pashinyan created 
a commission of experts, led by Daniel, that was tasked with 
recommending a package of changes to the Electoral Code ahead 
of snap parliamentary elections. I was a member of that 
Commission, returning to Yerevan from my work with the 
Smithsonian Institute here in DC for last year's Folk Life 
Festival, featuring Armenia. After a couple of months of work, 
this commission presented its final package. It was actually 
exactly one year ago today, on October 22nd, 2018, that the 
parliament rejected the bill that would have enacted those 
recommendations. The outgoing party of the previous regime 
still held a majority in Parliament. Thus, in December 2018, an 
early parliamentary election was held anyway, under the 
previous Electoral Code. I can say that they were the first-
ever genuinely democratic elections since Armenia's 
independence as was also reflected in the assessment of the 
OSCE ODIHR observation mission. I am honored to be a member of 
this new Parliament. Interestingly, had the previous 
government's members voted in favor of our more inclusive 
electoral rules, they would still have retained a few seats. 
Instead, they were completely shut out by their own system.
    Our attempt at electoral reform is thus still underway. In 
March 2018, a tri-partisan working group was formed to design 
and draft electoral changes with input from all three parties 
represented in parliament. This working group has prioritized a 
number of areas for the reform, including changes to the Law on 
Political Parties. Just last Friday, we held a day-long public 
hearing with participation from all major stakeholders to 
discuss how we can both cut red tape for party organization in 
Armenia but also increase transparency because we consider this 
to be an important anti-corruption measure.
    I will conclude by stating that we have no illusions that 
the task of creating strong and democratic institutions is 
simple. There will be a lot of challenges ahead but the effort 
will be well worth it if our generation can achieve the 
critical task institutionalizing Armenia's democratic 
statehood. In fact, it is the only way to enable Armenia to 
meet its domestic and foreign challenges.
    I want to say that this is a big struggle for a 
comparatively small nation. Its focus is not geopolitics but 
the individual people who wish to restore their sovereignty and 
are doing their best to make their homeland a place where they 
can pursue happiness with respect for human rights and 
freedoms. This is the struggle that we all hoped to emerge from 
for the past decade.
    I look forward to diving into the specific directions of 
the reforms during our conversation today.
    Thank you.

                 Prepared Statement of Arsen Kharatyan

    Thank you Chairman Veasey, Chairman Hastings and Co-
Chairman Wicker for holding this important hearing, and for 
inviting me to testify about Armenia's Velvet, non-violent 
Revolution and the progress the new government has made since 
coming to power in May of last year.
    Briefly about myself. I grew up in Armenia and got engaged 
in civic activism at a young age. In 2008, after the disputed 
Presidential elections that saw then-President Serzh Sargsyan 
claim to power, many of us were arrested and harassed to an 
extent that we were forced to leave the country. It wasn't all 
bad during those years--I got married to my wife, Sonia 
Shahrigian, who was born across the river in Virginia. Both of 
our kids were born in Sibley Hospital here in the District. 
Throughout the 2010s, I worked for Voice of America's Armenian 
service before my wife, who works for the Millennium Challenge 
Corporation, was assigned to the Republic of Georgia as deputy 
mission chief for the past five years. While in Georgia, I 
founded a media organization that focuses on the Armenian 
community living in Georgia and Armenian-Georgian relations.
    Now onto the topic of today's hearing. I think it will be 
apt for the Members of this Commission to re-live the marvelous 
events of last year for a few minutes.
    Last spring, when a small group of our friends alongside 
Nikol Pashinyan started walking from Armenia's northern city of 
Gyumri towards Yerevan, the capital, almost no one believed 
that in a span of weeks, Armenians would shake off decades of 
lethargy and hopelessness and begin finding themselves and 
believing in themselves. Our march was a protest against plans 
by one man to rule Armenia indefinitely. And prior to the start 
of our march, we said that in addition to not allowing the 
indefinite rule of a failed regime, we intended to defeat and 
uproot suffocating levels of pessimism, disengagement and 
hopelessness that had overwhelmed the people of Armenia.
    We knew and said as much that without liberating ourselves 
from the corrosive and arresting notions of apathy, we cannot 
overcome and resolve Armenia's pressing public policy 
challenges. We walked through Armenia's cities and villages 
where we were again reminded of the failures of her successive 
governments. But we also sensed and were inspired by the 
resolve and perseverance of our citizens. We encouraged others 
to ``Take a Step'' and join our movement. On the 14th day of 
the march while entering Yerevan another group of civic-minded 
citizens who were doing their part to protest the former Prime 
Minister-cum-President from solidifying his one-man and one-
party rule.
    Together, we walked into universities' quads and lecture 
halls and with malfunctioning bullhorns and coarse voices 
called upon students to shed their apathy, pessimism and 
resignation and commit to democracy, justice, freedom and 
fairness and engage in this civic movement that puts at its 
core citizens' dignity and rights. Students heeded our calls in 
droves, as did thousands of others.
    We continued marching through the streets of Armenia and in 
days ahead, sensing the unprecedented pent-up demand for 
wholesale change in Armenia, and seeing the surging of 
believers and doers adding to our numbers, we declared the 
start of a Velvet Revolution.
    Inspired by the words and guided by the deeds of Rev. 
Martin Luther King Jr., Nelson Mandela, Mahatma Gandhi, Lech 
Walesa, Vaclav Havel and Armenia's own men and women who stood 
against the Soviet Empire in the late 1980s and defended 
Armenia's sovereignty, and building upon the legacy of previous 
pro-democracy movements of Armenia, we set in motion a peaceful 
revolution.
    We engaged in acts of civil disobedience, saw the closure 
of streets, shutting down of public transportation and bridges, 
blocking entrances to government buildings, boycotts of 
businesses tied to the regime, sit-ins and more. Our numbers 
grew and grew, and we walked more. By April 23, Armenia's 
longtime ruler resigned, which only increased the numbers of 
Armenians who believed in themselves. We made it clear that the 
people's demands must be met unconditionally and that Armenia 
must have new leadership, one that has the backing of the 
people and not the few dozen Members of Parliament of a morally 
bankrupt political party in power for almost two decades.
    After a few more political shenanigans by the party in 
control of parliament, which were promptly answered by more 
demonstrations of people power of an entire nation and its 
diaspora, the once all-powerful ruling elite relented.
    This was a remarkable display of people power that was 
resolute, peaceful, tolerant, courageous and persistent which 
in turn inspired the world. An incredible level of optimism and 
confidence took over the hearts and minds of our people--and 
until today, that self-confidence and optimism inspires and 
motivates people remain engaged.
    For the last three decades our nation experienced great 
challenges. From military conflict in Nagorno Karabakh, to 
massive economic decline, a transition from the Soviet 
centralized to market economy with a continued blockade of our 
borders two of our four neighbours. However, since our 
independence in 1991 our people never stopped their struggle 
for their fundamental freedoms, civil and electoral rights. We 
do realize that the path to freedom is not an easy one, it is a 
bumpy road but in our view Armenia and the Armenian people have 
no other choice but to have a country with fully functioning 
democratic institutions and a strong civil society.
    While Armenia's non-violent Velvet Revolution is yet 
another example of great positive transformation and a hope for 
democracy for the world at this time of crisis, I have to admit 
that there are great challenges we have to deal with. The new 
democratically elected administration of our country, headed by 
the leader of our revolution and currently the Prime Minister 
of Armenia Nikol Pashinyan, has introduced its reform agenda 
with big emphases to fight against corruption, building state 
institutions, ensuring fundamental freedoms and liberties of 
our citizens. While, the current ruling party received a very 
high (70%) vote of confidence from Armenia's citizens during 
the snap parliamentary elections in December 2018, the new 
administration in Yerevan is now dealing with fundamental 
changes in the state governance in order to insure the 
prosperity for its citizens and security for the state. Years 
of corrupt governance eroded the state apparatus, created an 
oligarchic and kleptocratic system, where all of the resources 
of the country were utilized to benefit a tiny minority of 
strongmen and criminals.
    Since the early 90s the American people supported Armenia 
in its path to democracy, market economy, as well as helped 
build the country's civil society and free media. I would like 
to note that this continued support has been instrumental in 
our success before and during our Velvet Revolution, as without 
free media and a vibrant civil society this transformation 
would not have been possible. Hence, it is time to move forward 
and continue strengthening our democratic institutions and the 
country of Armenian as a whole.
    Since its inception, the democratically elected parliament 
and the government of Armenia has announced about a wide range 
of reforms in the country. One of the key areas for this reform 
is the fight against corruption. I can state, that at this 
point systemic corruption in the country is practically 
eliminated, as the political elite which came to power as a 
result of the revolution through free and fair elections, is a 
group of young and educated idealists, who are true believers 
of fundamental human rights and have the best intentions to 
make their country a fully functioning democracy. However, it 
is evident, that good intentions are not enough for changes of 
this scale, so we do need your assistance at this critical 
time.
    The government of Armenia has announced about its policy of 
fighting against corruption, which will soon be adopted by the 
country's parliament. The policy includes a wide range of 
changes in the areas of judiciary, tax and customs, reforming 
police and public security system, as well as education, health 
care and social security. The United States can and has already 
showed interest in supporting the Armenian governments in all 
of these areas, however it would be a great sign of support 
from Washington if this interest translated into concrete 
actions. While with the great help of the friends of Armenians 
at the US Congress the financial aid to our country has grown 
for the next year, earmarking the funds allocated to our 
country like it is done with our neighbours Georgia and Ukraine 
would be a great sign of wider political support. Meanwhile, in 
my view ``from aid to trade'' should be the philosophy of 
Washington DC with regards to Armenia. Hence, making OPIC funds 
bigger would encourage American businesses to enter Armenian 
market with more interest and confidence. Last but not least, 
supporting Armenia in the area of security can and should be 
discussed further. Our military is present in Iraq and 
Afghanistan within the framework of NATOs Partnership for Peace 
program. Considering the unresolved conflict in Nagorno 
Karabakh and the changing security architecture of our region, 
continued and deeper training of our security forces is of 
crucial importance. It would be a terrible missed opportunity 
if this self-empowerment and renaissance is not supported by 
concrete actions by the United States. The American people have 
been generous towards Armenians for over a century. They had 
our backs during the Armenian Genocide, they welcomed the 
refugees here and gave them a new home, they opened their 
hearts and wallets when Armenia became independent again in 
1991, and they should now embrace Armenia as she renews 
herself.
    That said, you should also raise your expectations of what 
Armenia and the Armenian government can and should do in the 
months and years ahead. You should not explain or excuse away 
our failures because of geopolitics or the legacies of the 
past. Yes, Armenia's challenges are decades in the making, but 
just like the people's apathy and seemingly all-powerful 
political monolith, the challenges can be overcome and 
resolved. Much is at stake, and we have got to get this right. 
The people who believed in themselves and the strength of the 
universal ideals of freedom, fairness and pursuit of happiness, 
deserve nothing less.
    I once again thank this Commission for organizing this 
important hearing and will be happy to address your questions.
    Thank you for your attention.

                Prepared Statement of Daniel Ioannisian

    For decades democratic institutions were being 
systematically destroyed in Armenia. All the state bodies 
forcefully served a group of people who kept power in their 
hands through rigged elections, extensive propaganda and total 
apathy. This situation was an example of a state capture.
    Expressing their discontent towards yet another attempt to 
violate democracy and desiring to counteract corruption, the 
people of Armenia made a democratic and peaceful revolution 
last year.
    As a result of the revolution, people who lost power did 
not lose the enormous financial and media resources they had. 
With the obvious support from Russia, they started active 
propaganda against liberal democracy, setting liberal democracy 
against security.
    That propaganda is so active that it makes the authorities 
step back from the ideology of liberal democracy and thus prove 
that they do respect the importance of security. And here I 
don't mean real security, I mean nationalistic and hoorah-
patriotic rhetorics.
    Currently, Armenia needs to consolidate its democracy so 
that the values of liberal democracy are not compromised. For 
that reason, support to the development of democratic 
institutes is important but not sufficient.
    As I already noted, the representatives of the former 
corrupt system hinder democratic transformation in all possible 
ways. These groups continue to own huge financial resources 
obtained by corruption, and they act very efficiently in the 
cyber and information space together with Russia.
    I should note that in this respect it will be very 
efficient to freeze the illegally obtained assets of those who 
have committed corruption related crimes in Armenia. To freeze 
it everywhere in the world, including in the US. Of course, 
this all should be done with due respect towards human rights 
and fundamental freedoms.
    But neutralisation of corrupt representatives of the former 
government is not enough. It is also important to support 
making democratic transition in Armenia to make it more 
complete and comprehensive.
    It is crucial that the independent judicial system and 
efficient law enforcement develop in Armenia. One of the 
weaknesses of the law enforcement system in this respect are 
the lack of capacities to fight against corruption, cyber 
crimes and organized crime.
    The capacities of the law enforcement and judicial systems 
in this sector are so weak that very often they are not able to 
institute criminal prosecution based on the investigations 
already conducted by investigative journalists or other 
watchdogs.
    As a result, the representatives of the former corrupt 
government violate laws, commit financial and cyber crimes, 
conduct large-scale campaigns against democratic reforms but 
remain largely unpunished only because the capacities of the 
law enforcement system and the Prosecutor's Office, and the 
independence of the courts are not enough to respond to these 
criminal activities.
    Although Armenian authorities largely share democratic 
values, they are quite inexperienced. And due to this factor 
the former corrupt regime manages to force the authorities to 
slow down the institutional reforms by setting security against 
liberal democracy and affecting public opinion.
    It is also important to note that with respect to higher 
efficiency of reforms and not compromising the ideas of liberal 
democracy, it is crucial that the process of reforms should be 
inclusive and non-profit organizations which have promoted 
democratic values for years are actively involved in it.
    Today Armenia has the exclusive and unique opportunity to 
put the principles of liberal democracy on institutional bases. 
To reach that end, support should be provided to Armenia in 
terms of becoming independent from Russia to the extent 
possible. It is no secret to anybody here that Russia does not 
like any democratization process in its neighbourhood.
    And independence from Russia can grow if non-natural gas 
based generation of electricity and other infrastructures will 
develop in Armenia. The first will assist in reducing the 
influence of Russian gas, and the second will help in bringing 
back Armenian working-migrants from Russia since they also 
serve as a pressure-exerting lever for Kremlin.

                  Prepared Statement of Miriam Lanskoy

    I am grateful to the Helsinki Commission for holding this 
very important hearing and for giving me the opportunity to 
speak about the state of reform efforts in Armenia.
    The National Endowment for Democracy (NED) is a private, 
nonprofit foundation dedicated to the growth and strengthening 
of democratic institutions around the world. NED has been 
supporting civil society in Armenia continuously since the mid-
1990s, and maintains a large portfolio of projects. NED's 
programs in Armenia include support for foreign policy think 
tanks, human rights organizations, vote monitoring coalitions, 
provision of legal expertise, conflict resolution, and media 
assistance. Supporting the democratic transition in Armenia is 
a major priority for NED and we have substantially expanded 
funding for Armenian organizations.
    Armenia's Velvet Revolution is an authentic democratic 
breakthrough, a historic opportunity to build a more just 
system. No event since Armenia acquired its independence in 
1991 is of similar significance. Beyond transforming the 
relationship between citizen and government in Armenia, it 
stands as an example of peaceful transition for the post-Soviet 
space. That Armenia has not altered its geopolitical alignments 
and remains dependent on Russia for security and energy does 
not diminish the significance of the opening or the opportunity 
it presents for deepening relations with the US.
    Reform plans have been slow to materialize, raising 
concerns that the momentum for change could dissipate. Nikol 
Pashinyan has been Prime Minister since May 2018 and the new 
democratically elected parliament convened in January 2019. 
What are the obstacles to reform? This is not entirely clear 
and is subject to considerable debate. The philosophy of the 
new leadership is to avoid dramatic change and they point 
correctly to mistakes and abuses during transitions elsewhere. 
Instead, they believe that they can make the existing system 
work better through better practices. No serious analyst 
questions their motives or their values--this debate is largely 
about the strategy and speed of reform. Other factors at play 
may be the lack of qualified and motivated professionals within 
the ministries as well as over-centralization of power in the 
office of the Prime Minister. The Prime Minister has vast 
responsibility for foreign and domestic policy and is a 
charismatic leader--a journalist, a former political prisoner, 
and parliamentarian--but lacking executive experience.
    The fundamental approach is to start with reforms that 
would support rule of law and eventually make Armenia more 
attractive to investment. A program for anti-corruption reform, 
which would include an anti-corruption court, freedom of 
information mechanisms, and asset declarations for office 
holders, is being drafted, as is a program for judicial reform. 
The existing proposals represent a positive step, particularly 
by the new Minister of Justice, to move forward with reforms 
under challenging and imperfect circumstances, but they fail to 
answer several key, big picture questions about what justice 
will look like in a new Armenia, and at the micro-level need 
increased detail and a plan for implementation. Despite these 
flaws, putting these reforms forward, as with similar proposals 
for reforms in the tax code, in education, and in healthcare, 
generates momentum for important conversations which need to 
happen if the revolution is to deliver on its promises.
    While some progress has been made within the ministries 
towards putting forward a reform agenda, parliament has, so 
far, taken less of a leading role. The parliamentary elections 
in December 2018 were free and fair and produced a parliament 
with three parties where Pashinyan's My Step won with 70% of 
the vote and has 88 out of 132 seats. The median age of a 
parliamentarian is 40, and 101 members are freshmen. The 
parliamentarians are young and new to politics. Moreover, the 
parliament as an institution has never had a meaningful role, 
power has always been concentrated in the executive. However, 
over time the very talented young people in parliament may 
start to take greater initiative. A strong parliament is a key 
pillar of democracy and various forms of assistance, notably 
from NDI and IRI, are already underway. Additional new 
initiatives could include building up professional committee 
staff and creating a parliamentary research service.
    NED has prioritized its media assistance and countering 
disinformation. Armenia has a real problem with disinformation 
coming from Russian state media as well as domestic 
disinformation. The main television stations are controlled by 
oligarchs close to the old regime and are continuously 
divisive, scandalous, and distracting. New broadcast licenses 
will not be available for at least a year although there are 
some reforms at the state broadcaster. NED is focusing on 
building capacity of independent online outlets who have a 
strong audience and a strong editorial line and can in the 
future transition to producing television programs when that 
opportunity becomes available. Other programs uncover 
disinformation, support Russian language coverage of events in 
Armenia, provide journalism trainings, and conduct analysis of 
audiences and viewership trends. More could be done to provide 
training, to support the emergence of independent media, 
particularly television, and to help different government 
entities develop communication strategies.
    Perhaps the most significant process underway is the trial 
of former President Robert Kocharian. This is the first time 
that any former president of a post-Soviet state has been 
brought to trial. Kocharian is a friend of Putin and few would 
have expected that Armenia would risk antagonizing Putin by 
prosecuting him. Kocharian is charged with abusing his 
authority by imposing martial law and authorizing use of deadly 
force to disperse protests leading to the deaths of ten people 
in 2008. This pivotal case is being handled by an unreformed 
police, prosecutors, and judiciary. The Constitutional Court 
made up almost entirely of Kocharian's appointees has ruled 
that he enjoys immunity, yet the case is proceeding to trial 
over their objections. Kocharian's defense argues that he had 
legal authority to call martial law. It is not at clear that 
the constitution, the law, the judiciary--all produced by an 
authoritarian system designed to shield the president from 
accountability--can deliver justice in this case. This is the 
central dilemma of today's Armenia--can the good people now in 
government achieve their admirable goals without first 
undertaking systematic institutional restructuring?
    Pashinyan and My Step remain very popular and are only one 
year into a five-year term. Armenians understand that this 
government is trying to solve problems that it did not create, 
that have accumulated over two decades of authoritarianism and 
kleptocracy. However, the oligarchic disinformation machine is 
waiting patiently for the new government will fail to deliver 
so that at some future point they might exploit this 
government's mistakes or unfulfilled promises to engineer a 
comeback. The lessons from attempted democratic transitions 
elsewhere in Eurasia are clear, backsliding has occurred 
frequently, and to ward off that possibility tangible 
improvements must materialize rapidly lest public trust erodes 
and authoritarians return to power.

                 Prepared Statement of Jonathan D. Katz

    Chairman Hastings, Co-Chairman Wicker and Members of the 
Commission,
    Thank you for the opportunity to join this distinguished 
panel to discuss Armenia's democratic transformation and steps 
the United States and other international partners can take to 
work with the government in Yerevan, along with Armenian 
citizens and the Armenian diaspora, to strengthen rule of law 
and transparency in Armenia.
    As you may be aware, the German Marshall Fund of the United 
States and our Black Sea Trust based in Bucharest continue to 
support democracy, civil society and free media in Armenia and 
across Eastern Europe. GMF working with international partners 
has stepped up our efforts following the Velvet Revolution to 
support Armenians working towards genuine democratic reform, 
human rights and rule of law.
    In an era where we have seen democratic backsliding 
occurring in too many countries across Eastern Europe, Armenia 
stands out as a nation bucking this disturbing trend, despite 
enormous economic, political, security and geostrategic 
challenges. Those challenges are particularly acute when you 
consider closed borders, Armenia's delicate balancing act 
between Russia and the West, and what had up until recently 
been weak democratic progress since independence in 1991. I 
know the Commission has followed Armenia's progress closely 
from the referendum in 1991 that led to independence from the 
Soviet Union to the dramatic events that led to the Velvet 
Revolution in 2018.
    Armenia has undergone a truly historic transformation 
following its Velvet Revolution in the Spring of 2018, led by 
civic activists and now Prime Minister Pashinyan, that has 
ushered in an unparalleled environment for democratic and 
judicial reforms that had been stymied by previous governments. 
Parliamentary elections last December where the My Step 
Alliance, which includes Prime Minister Pashinyan's Civil 
Contract Party, won over 70% of the votes have created 
unprecedented conditions for the Armenian government to act on 
the Velvet Revolution demands.
    Notwithstanding this remarkable transformation, Armenia's 
reforms are incomplete, and the country faces some serious 
challenges. The United States has an important role to play in 
helping Armenia face these challenges and carry out 
transformative democratic reforms. Helping Armenia succeed is 
also important to overall U.S. and European efforts to advance 
democracy and combat kleptocracy across Europe and Eurasia.
    Armenia's revolution, which no one could have predicted--is 
an opportunity for Armenians to break free of entrenched 
corruption that has held back this nation politically and 
economically. This is one reason why it is incredibly important 
for partners of Armenia, including the United States, the U.S. 
Helsinki Commission and Congress, to support Armenia's 
transformation, including by providing necessary assistance and 
resources, and working with the Armenian people and government. 
U.S. policy toward Armenia should also include a strategy that 
greatly enhances Armenia's independence and expands its 
political, economic, security, and energy options.
    Chairman Hastings and Commissioners, your leadership in 
this effort is critical and two-fold. First, your leadership is 
needed to ensure that legislation and assistance for Armenia 
currently making its way through Congress is passed and 
assistance is funded appropriately. If we support a deeper 
bilateral relationship with Armenia it should come with more 
robust diplomatic engagement and overall assistance. Second, it 
is essential that you continue to press the Armenian 
government, in Washington and through OSCE efforts in Armenia, 
to carry out expeditiously judicial, rule of law and anti-
corruption reforms that it has prioritized and to take 
additional steps to improve human rights, gender equality and 
security reforms. Armenia's democracy reforms are a work in 
progress today and the Helsinki Commission's sustained 
attention, encouragement and engagement is exactly the support 
needed to spur progress.
    I want to take a step back to look at Armenia's reform 
progress and challenges. This past February, the new government 
led by Prime Minister Pashinyan announced an ambitious five-
year plan of the government focused on economy, trade, 
security, and other top priorities including democracy, rule of 
law and transparency.
    The government's plan, which is to be commended, focuses on 
the ``key importance of democracy, development of democratic 
institutions, rule of law, and equality before the law for all, 
the existence of an independent judiciary, and introduction of 
an effective mechanism of checks and balances. The plan also 
focused on accountability and transparency of the government, 
public rejection of corruption, and corruption-free society.''
    I will touch briefly on judicial and electoral reform that 
are critical to continued democratic and economic progress in 
Armenia.

Judicial Reform 

    Armenia's judiciary still lacks independence, despite 
several high-profile arrests of former officials demonstrating 
the government's commitment to the issue. This factors into the 
ability of the government to effectively carryout democratic 
reforms, combat corruption, and create an economy that is 
attractive and transparent to domestic and international 
investors. Prime Minister Pashinyan has said the lack of 
judicial independence was the ``number one threat to the 
country.''
    The leadership of the Armenian judiciary includes holdovers 
from previous governments that were not committed to an 
independent judiciary upholding the rule of law. This is a 
pattern in countries that seek rule of law reforms but are 
blocked by judiciaries. For example, this is a problem in 
Moldova and Ukraine where the judiciaries represent the 
priorities and thinking of previous governments and entrenched 
economic and political interests.
    While judicial and rule of law reform is moving forward, 
the pace of reforms is still not as advanced as many thought it 
would be under the Pashinyan government. That is not to say 
that action is not taking place. For example, the draft anti-
corruption plan laid out by the government includes ``three 
main directions including prevention of corruption, the 
exposing of corruption crimes, and anticorruption education and 
awareness.''
    This month we are seeing progress, including the 
government's recent announcement by Armenian Justice Minister 
Badasyan, on the provision of greater detail on rule of law, 
judicial, and constitutional reforms. Minister Badasyan has 
spoken specially about to e-justice tools to expand access to 
justice throughout the country and reforms in Armenia's 
prosecution system and investigative bodies.
    The Venice Commission responded positively last week to the 
Armenian governments judicial reform package. The Commission 
said that the proposals are ``in line with European standards 
and contribute to combatting corruption without encroaching on 
the independence of the judiciary.'' The Commission stressed, 
however, that the offer of early retirement to some justices of 
the Constitutional Court made in a draft law is not 
objectionable only if it remains strictly voluntary and if it 
does not hinder the effective functioning of the Constitutional 
Court.

Elections and Electoral Reform 

    Prior to the local and national elections in 2018, 
Armenians elections were not seen as free, fair, or 
transparent. There were deep concerns about the misuse of 
administrative resources, the independence and professionalism 
of the Central Election Commission, undue influence on 
opposition parties, and lack of independent media.
    The 2018 elections, including local and national elections, 
were an improvement on the status quo. The Organization for 
Security and Co-operation in Europe (OSCE) found that ``the 
general absence of electoral malfeasance, including of vote-
buying and pressure on voters, allowed for genuine 
competition.'' The Pashinyan government has adopted legislation 
that would criminalize vote buying.

Internal and External Challenges

    Although there has been progress there are several internal 
and external challenges that impact the progress of Yerevan's 
democratic reforms. Despite the deep desire of the public, 
Prime Minister Pashinyan, and his government, transforming a 
country like Armenia that was scored as a semi-consolidated 
authoritarian regime by Freedom House's Nation in Transit in 
2018, is a monumental task under the best of circumstances.
    The government infrastructure, administration, and 
judiciary left in place for the new government, along with 
security and economic challenges, makes true reform an uphill 
battle for the Armenian government. The Prime Minister tried to 
compel changes to a Judiciary in the spring with limited 
effect. Many Armenians are concerned the Judiciary is not 
independent or up to the task of democratic and rule of law 
transformation in Armenia, but affecting change is difficult.
    The entrenched political elite that controlled Armenia's 
legislative and executive branches may be gone but resistance 
to changing a corrupt system remains. Partners of Armenia 
should understand that reform, and its implementation, will 
take time.
    Beyond domestic challenges, Russia is a key external factor 
in Yerevan's reform efforts. Moscow continues to play a 
significant role in Armenia and pulls strings in key sectors. 
What complicates this relationship is that Pashinyan and Putin 
are on opposites sides of the spectrum on democracy and 
combating corruption and rule of law.
    Despite substantive differences on democracy between the 
two leaders Moscow refrained from interfering in the 2018 
antigovernment demonstrations or the subsequent power transfer, 
which is one reason that Pashinyan pledged to maintain close 
ties with Russia. But Moscow can ratchet up pressure and 
instability through different mediums if Putin believes his 
interests are threatened. Armenia has a deep relationship with 
Russia, which has many economic, energy, and security sources 
of leverage.
    PM Pashinyan has been careful to maintain good relations 
with Russia and desire for greater engagement with the West. In 
a recent Pashinyan post on Facebook following a meeting of the 
Eurasian Economic Union, he hosted in Yerevan, he posted that: 
``Armenia-Russia relations are on a reliable and positive 
track.''
    China is an emerging external actor that could impact 
Armenia reform efforts present and future. Beijing has a 
growing political, economic, and technological relationship 
with Armenia. Positive relations with China have become a top 
foreign policy priority for Yerevan. In turn, China has 
expanded its diplomatic and soft power footprint in Yerevan, 
including a face to face meeting between Pashinyan and Chinese 
President Xi Jinping in May focused on Belt and Road and 
development cooperation.

United States-Armenia Bilateral Relations

    The United States continues to be an important partner for 
Armenia. This connection has taken on added significance 
recently after twenty-eight years of support, given the new 
government's focus on democracy, rule of law, and countering 
corruption. The bilateral relationship is deeper than it has 
been in years. However, there is opportunity for greater U.S.-
Armenia cooperation.
    The Pashinyan government's democratic reform efforts align 
closely with the values of the United States, European Union 
and other Western partners in supporting rule of law, human 
rights, and a transparent market-oriented economy. U.S. and EU 
officials have been quick to point out important reform 
progress carried out by the Armenian government. The European 
Union, through the EU-Armenia Comprehensive and Enhanced 
Partnership Agreement (CEPA), matches Washington in assistance 
support for democracy reforms, economic growth, and other 
issues.
    The increased focus and appreciation of new political 
dynamics in Armenia have led to changes in the bilateral 
relationship. The U.S. has signaled an increased willingness 
through the U.S.-Armenia Strategic Dialogue (USASD) to discuss 
``cooperation on strategic reforms and promoting shared 
democratic values and deepening cooperation across all areas of 
the bilateral relationship.''
    Having served as a co-chair of the U.S.-Armenia Task Force 
in 2016 I can see an expanded, current level of engagement 
between the United States and Armenia. The U.S. government 
clearly now has a whole of U.S. government approach and a 
widening of areas of potential cooperation compared to previous 
U.S.-Armenia bilateral dialogues. For example, two important 
USAID projects, focused on economic growth and good governance, 
totaling $16 million dollars, were signed during the USASD in 
May 2019. This represents and supports increased cooperation of 
the United States with Armenians. The good governance program 
is funded with $6 million dedicated for its first year of 
funding in 2019.
    Beyond the USASD, however, the United States should 
continue to strengthen diplomatic and assistance coordination 
and make every effort to find opportunities for high-level 
engagement. The level of requested funding from the 
administration over the last several years, including $6.8 
million in Fiscal Year 2018 and $6 million in Fiscal Year 2019 
is not enough and sends the wrong message about the U.S. 
commitment to Armenia and its reform.
    The role of Congress as mentioned earlier in my testimony 
remains essential to strengthening the bilateral relations 
between the United States and Armenia. I agree with bipartisan 
calls from the Hill to strengthen and upgrade the strategic 
partnership with Yerevan and the Armenian people. This could 
include increasing funding levels, encouraging high level 
engagement between U.S.-Armenian leaders, advancing additional 
avenues of support, for example through the Millennium 
Challenge Corporation and the new U.S. Development Finance 
Corporation, and ensuring the sustainability of resources over 
multiple years.
    Congress has repeatedly filled the gap ensuring that 
assistance levels remains appropriate. According to the 
Congressional Research Service, the U.S. Embassy in Armenia 
stated that FY2018 assistance would amount to more than $26 
million - despite the Administration's initial request of only 
$6.8 million. Going forward, Congress has had to step in to 
ensure that funding levels remain sufficient.
    Congress should also work with the State Department and 
USAID and other partners to expand U.S. support for civil 
society and independent media in Armenia. It is critical that 
both independent media and civil society remain robust to hold 
accountable the Armenian government as it moves forward on 
reforms, especially related to anti-corruption and rule of law 
efforts. In turn, it is critical that the Armenian government 
respond appropriately when civil society is attacked. The U.S. 
can help to support these principles.

Conclusion

    There is an historic opportunity for Armenia to transform 
and become a deeper, more democratic partner for the United 
States and the West. The United States and Europe have a strong 
interest in supporting Armenia's democratic and rule of law 
reforms. The Armenian government has made important strides, 
but it needs time and support, both domestic and international, 
to root out the vestiges of an old, corrupt system that 
benefited a few at the expense of many.
    Thank you again for the opportunity to testify at the U.S. 
Helsinki Commission. I look forward to answering your 
questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              <all>

  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe [OSCE].

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
